<html>
<title> - COAST GUARD INTERDICTION EFFORTS IN THE TRANSIT ZONE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
          COAST GUARD INTERDICTION EFFORTS IN THE TRANSIT ZONE
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 10, 1997
                               __________

                           Serial No. 105-18
                               __________

Printed for the use of the Committee on Government Reform and Oversight



                     U.S. GOVERNMENT PRINTING OFFICE
41-842                       WASHINGTON : 1997
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN B. SHADEGG, Arizona             DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVE LaTOURETTE, Ohio               JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
              Sean Littlefield, Professional Staff Member
                          Ianthe Saylor, Clerk
                     Mike Yeager, Minority Counsel









                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 10, 1997...................................     1
Statement of:
    Burns, LCDR Mike, U.S. Coast Guard, C-130 aircraft pilot; 
      LCDR Randy Forrester, U.S. Coast Guard, HU-25C aircraft 
      pilot; LT Jim Carlson, U.S. Coast Guard, Commanding 
      Officer, USCGC Vashon; and BM1 Mark Fitzmorris, U.S. Coast 
      Guard, Boarding Officer, USCGC Tampa.......................    38
    Kramek, Admiral Robert E., Commandant, U.S. Coast Guard......     3
    Yost, Admiral Paul A., president, James Madison Memorial 
      Fellowship Foundation and former Commandant, U.S. Coast 
      Guard......................................................    50
Letters, statements, etc., submitted for the record by:
    Carlson, LT Jim, U.S. Coast Guard, Commanding Officer, USCGC 
      Vashon, information concerning estimated street value of 
      drugs......................................................    49
    Kramek, Admiral Robert E., Commandant, U.S. Coast Guard:
        Information concerning signatory foreign governments.....    35
        Prepared statement of....................................     8







       COAST GUARD DRUG INTERDICTION EFFORTS IN THE TRANSIT ZONE

                              ----------                              


                         MONDAY, MARCH 10, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:15 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Souder, Barrett and 
Turner.
    Staff present: Robert Charles, staff director and chief 
counsel; Sean Littlefield, professional staff member; Ianthe 
Saylor, clerk; Mike Yeager, minority counsel; and Ellen Rayner, 
minority chief clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order.
    We have two people on the way over; and, because I think 
probably everybody's time is valuable sitting out in the 
audience, I would like to get going.
    In today's hearing, we zero in on the national security 
threat posed by the explosion of maritime drug trafficking in 
the transit zone and the extraordinary efforts by the U.S. 
Coast Guard to combat it. Let me say, by transit zone, we mean 
the 2 million square miles between the United States and South 
American borders; it covers the Caribbean Sea, the Gulf of 
Mexico, Central America, Mexico and the Eastern Pacific.
    We are privileged to have Admiral Robert Kramek, President 
Clinton's outstanding Interdiction Coordinator and the 
Commandant of the Coast Guard. Admiral Kramek has been a 
tremendous leader in our interdiction efforts, and we welcome 
him here today.
    We are also pleased to have with us several front-line 
Coast Guard personnel direct from operations within the transit 
zone--a C-130 pilot, a HU-25C pilot, a Commanding Officer of a 
cutter, and a Boarding Officer. These officers are the ones who 
have to risk their lives tracking, pursuing and arresting 
international drug traffickers off the coasts of Colombia and 
Mexico and our own coast. We are honored to have all of you 
brave men here today.
    Finally, we have Admiral Paul Yost, former Coast Guard 
Commandant and the architect of the highly effective late-
1980's drug interdiction program.
    We welcome all of you.
    Stopping the flow of cocaine into the United States is the 
No. 1 priority of the international drug control policy. 
Currently, over 30 percent of the cocaine entering the United 
States comes through the Caribbean, mostly from Colombia, bound 
for Mexico and Puerto Rico. Roughly $15 billion worth of 
cocaine travels through the Caribbean. A great deal of this 
cocaine enters the United States through the ports and borders 
of Puerto Rico. Have no doubts, drugs entering Puerto Rico 
don't stop there--80 percent continue on to the rest of the 
United States.
    All current indicators show an increase in trafficking 
through the Caribbean, but there is another untold story. 
Budget reductions since 1992 for interdiction efforts have 
reduced the ability of law enforcement and the Defense 
Department to identify, to track and to intercept international 
drug traffickers. The problem intensified in 1995. The 
President's 1995 National Drug Control Strategy stated that ``a 
stronger focus on source countries was necessary,'' and the 
National Security Council ``determined that a controlled shift 
in emphasis was required, a shift away from past efforts that 
focused primarily on interdiction in the transit zone to new 
efforts that focus on interdiction in and around source 
countries.''
    President Clinton issued Presidential Decision Directive 14 
making this determination official policy.
    But the policy has not become a reality. While funding was 
shifted from transit zone interdiction, stripping the Coast 
Guard and others of critical resources, there was no increase 
in funds for source country programs. We lost critical transit 
zone support and gained no new resources in the source 
countries.
    Due to this shift in resources, we have seen the Caribbean 
become an extremely active drug transit area. In fact, Puerto 
Rico has probably paid as high a price as anyone. Their murder 
rate has become higher than any State over the past several 
years, and 90 percent of all violence on the island is believed 
to be drug related.
    Last June, this subcommittee conducted a field hearing in 
San Juan Harbor aboard a Coast Guard cutter aptly named the 
Courageous. At that hearing, we heard from Governor Rossello, 
who clearly conveyed the message that his island is under 
siege. Under his leadership, Puerto Rico has fought back. But 
they cannot do it alone. They need our support.
    Reduced attention by the President and weaker funding is a 
big part of the problem. In fiscal 1991, President Bush 
committed $2 billion to drug interdiction. By 1995, President 
Clinton had cut interdiction spending to $1.2 billion. The 
President mothballed Customs and other aircraft, removed 
intelligence assets and reduced the number of Coast Guard 
cutters, ship days, flying hours and personnel.
    In the last 3 years, Congress restored some of the much-
needed funding for transit zone and source zone interdiction. 
But we are far from having the resources we had when Admiral 
Yost led our efforts in the late 1980's. For fiscal year 1998, 
the President has requested $1.6 billion for interdiction and 
just under $4 billion for the Coast Guard. We will work to make 
that happen, but more effort is needed.
    Finally, we need to discuss how effective increased 
resources can be. A recently released report by the Institute 
for Defense Analyses employed rigorous mathematical modeling to 
quality and determined that a properly planned, source zone 
interdiction strategy is cost-effective. Such a campaign 
increases cocaine prices and thereby reduces the use of cocaine 
in the United States.
    Based on the success of a new operation called Frontier 
Shield, which Admiral Kramek will outline today, and the 
results of the IDA study, we now need to reassess our funding 
structure for interdiction and how important this part of the 
drug war is.
    I hope that today's hearing will serve as a cornerstone for 
this subcommittee's efforts over the next 2 years. Thank you.
    Before proceeding with our first panel, I am pleased to 
turn to my colleagues--we have none right now, we will reserve 
that for a later time--for any opening statements that they 
wish to enter into the record at that time.
    I would like to welcome Admiral Robert Kramek, Commandant 
of the U.S. Coast Guard and U.S. Interdiction Coordinator. We 
appreciate your being here today. We know certainly this is a 
busy time of year for you.
    Admiral, if you would stand and raise your hand, the 
committee's rules require me to swear you in.
    [Witness sworn.]
    Mr. Hastert. Let the record show that the witness responded 
in the affirmative.
    Admiral, please proceed with your opening statement.

 STATEMENT OF ADMIRAL ROBERT E. KRAMEK, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Kramek. Thank you, Mr. Chairman. It is a pleasure 
to appear before you today and discuss Coast Guard transit zone 
interdiction operations and my role as U.S. Interdiction 
Coordinator.
    I am often asked to discuss the many issues of the Coast 
Guard with respect to saving lives and protecting property, and 
drug interdiction is no different. By reducing the supply of 
cocaine and other drugs which are smuggled across our borders, 
the Coast Guard saves lives and protects property from drug-
related violence.
    Today, Mr. Chairman, we will talk about why interdiction is 
a very important tool in the effort to stop drugs from coming 
into our country and that it is a successful supply reduction 
effort.
    We will also discuss the importance of maritime 
interdiction and why it is effective. When the correct 
resources are applied, as the Coast Guard has recently 
demonstrated during operation Frontier Shield, we get a lot of 
bang for our buck.
    The Coast Guard is unique, as you know, in that it is the 
only member of the Armed Forces with law enforcement authority; 
and that is why we have become and been designated the lead 
agency for drug interdiction in the maritime regions, 
especially for surface in maritime and co-lead with Customs for 
air interdiction.
    We, with the support of General McCaffrey, have put 
together a 5-year budget plan. Our fiscal 1998 appropriations, 
which I will be testifying on later on this week, is the first 
year of that 5-year plan to support the administration's 10-
year strategy to successfully reduce drug use amongst all of 
our population.
    The Coast Guard campaign is called Steel Web; and during 
this hearing, Mr. Chairman, I will describe a little bit of 
that campaign to you.
    I would like to draw your attention right now to the threat 
slide all the way on the right showing the magnitude of cocaine 
flow. You and I have discussed that before, but it is 
illustrative of the threat in the maritime region in that those 
threat arrows, such as 100 metric tons of cocaine heading right 
toward Puerto Rico and the Virgin Islands, represents the 
transit from the source countries to Puerto Rico and the Virgin 
Islands as an example, on the sea, over the sea, and in some 
cases even under the sea.
    But, for the most part, the Coast Guard is the lead agency 
for maritime interdiction; and our job is to take a look at 
where those threats are and, working with other agencies in the 
Federal Government, especially the Department of Defense, to 
mount a credible deterrence and interdiction force to prevent 
those drugs, especially cocaine, from entering the United 
States.
    Testifying before you last year, Mr. Chairman, in the 
spring, you had properly identified almost 28 to 30 percent of 
the cocaine flowing up into Puerto Rico and the Virgin Islands 
from the source countries. In response to that, I mounted a 
major campaign, which I will talk about in just a few minutes.
    I think it is notable, though, that if you were to look at 
that chart, you would see on the west coast of Mexico almost 
234 metric tons and on the east coast of Mexico almost 264 
metric tons. Clearly more than 60 percent of the total cocaine 
flow coming out of the source countries goes to either coast of 
Mexico.
    We will talk about some operations that are under way there 
now to thwart that, but those operations are just kicking off 
and are going to require more resources than are currently 
available to do it.
    In his letter transmitting the 1997 National Drug Control 
Strategy to Congress, President Clinton wrote, ``We must 
continue to shield America's air, land and sea frontiers from 
the drug threat. We must continue our interdiction efforts, 
which have greatly disrupted the trafficking pattern of cocaine 
smugglers and have blocked the free flow of cocaine.''
    The Speaker of the House, Mr. Gingrich, in his acceptance 
speech at the beginning of the 105th Congress stated, ``Drugs 
aren't statistics. Drugs are real human beings being destroyed. 
Drugs are real violence.''
    These statements by our Nation's leaders demonstrate our 
bipartisan commitment to combat this plague.
    As you mentioned, Mr. Chairman, you are also going to hear 
from four Coast Guard personnel today.
    Lieutenant Commander Mike Burns, a C-130 aircraft 
Commander, who will tell you about the use of new technology, 
forward-looking infrared and the aperture radars aboard our C-
130 aircraft, and how he has recently used that technology in 
detection and monitoring and helping the interdiction role 
around Puerto Rico and the Caribbean AOR. There is money in our 
1998 budget to support continued installation of the forward-
looking infrared equipment on these aircraft.
    You will also hear from Lieutenant Commander Randy 
Forrester, a Charlie Model Falcon aircraft Commander. This 
aircraft is specially outfitted with F-16 fighter aircraft 
radar and other sensors. It is very dangerous, what he does. He 
not only has to intercept aircraft, but then he has to get very 
close, track them and identify them, until we reach an end game 
where an apprehension can be made.
    Our 1998 budget also brings back aircraft into our fleet 
and allows all of our Falcon aircraft to be located in Miami, 
FL, conducting the intercept mission for which they were 
designed and outfitted.
    You will also hear from Lieutenant Jim Carlson, Commanding 
Officer of one of our 110-foot patrol boats, the Coast Guard 
cutter Vashon. These patrol boats are our first line of defense 
against smugglers trying to reach our shoreline.
    They were designed to be away from home, from port, for 2 
to 4 days. Many of them are away from home port for 45 days, 
Mr. Chairman. We brought them all the way down from Maine, as a 
matter of fact, and have them stationed in Puerto Rico, 
operating there for up to 5 and 6 weeks at a time in forward-
operating bases. When not encountering drug smugglers, they are 
encountering the 9,000 migrants we interdicted in the Mona 
Passage coming from the Dominican Republic to Puerto Rico last 
year, some of which were also carrying drugs. Over 100 migrants 
this weekend alone were intercepted, some of them in a capsized 
vessel, and they deceased.
    You will also hear from Petty Officer Mark Fitzmorris, a 
Boarding Officer on Coast Guard cutter Tampa. This Boarding 
Officer was involved in many inspections, and the Tampa was 
recently involved in seizing over 1,700 pounds of cocaine 
coming into Puerto Rico. He will be able to tell you about his 
experiences doing that particular mission.
    I mentioned our 5-year budget plan, Mr. Chairman. The 
middle slide is called Steel Web. Steel Web is the campaign 
that we will mount over the next 5 years. That will provide 
both the deterrence and interdiction forces to intercept those 
threat arrows.
    The Coast Guard is just one element in this. As the U.S. 
Interdiction Coordinator, I coordinate the Department of 
Defense, Customs, DEA, FBI, all agencies, because it requires 
the resources of all of our agencies in order to counter this 
threat.
    I know you visited Joint Interagency Task Force East in Key 
West. You have been to Puerto Rico and seen some of that in 
action. In a true spirit of jointness, more jointness than just 
in the five armed forces, joint interagency task forces working 
together is how our campaign plan is put together. Each agency 
is a piece of this patchwork quilt that is necessary to thwart 
this particular threat.
    As I mentioned, funding for operation Steel Web for the 
first phase of our 5-year program is included in the Coast 
Guard's 1998 budget; and we will have a hearing on that this 
Wednesday.
    You will notice on the Steel Web slide at the point of the 
110 metric ton arrow is operation Steel Gauntlet. That is the 
operation around Puerto Rico and the Virgin Islands, Mr. 
Chairman.
    We prototyped that operation this year. It is better known 
to you as operation Frontier Shield. It was in direct response 
to the hearings that you held this last May and the GAO report 
indicating the 28 percent of cocaine flowing up to that area of 
responsibility.
    Steel Gauntlet will be the steady state operation that will 
deter and interdict drug smugglers. I hope 90 percent of the 
smugglers that take off from Colombia will not ever make it to 
Puerto Rico. They will either be deterred and go back or be 
caught. The level of resources we will ask for over the next 5 
years in Steel Gauntlet will allow that to happen.
    In the meantime, we tested that out, Mr. Chairman, with an 
operation called Frontier Shield. We took the resources that 
this committee was instrumental in convincing the appropriators 
to appropriate as a sort of a supplemental at the end of the 
last budget season, and in that particular case we started 
Frontier Shield and then were augmented with about $14.5 
million that the Appropriations Committee had supplied to ONDCP 
to help the Coast Guard in this endeavor.
    I would like to just show you what robust interdiction can 
do. As you know, I met with Governor Rossello. I met with all 
the leaders in that part of the region, including the Prime 
Minister of Haiti and the President of the Dominican Republic, 
and recently went down to that AOR in the middle of operation 
Frontier Shield during Thanksgiving week.
    These results you see here, we started this operation on 
October 1, 1996, until March 1st--so 4 months, 5 months, of 
operations. In that time, we have had 17,968 vessels sighted 
heading toward Puerto Rico and the Virgin Islands. We have 
sorted that out; and, of that, 1,562 were targets of interest.
    To give you an order of magnitude of how much traffic is 
down there, we decided to board 892 of those vessels. Some of 
our person-
nel will tell you what it is like to do that later on in the 
hearing.
    The results of those boardings were we seized 19,000 pounds 
of cocaine. We seized 11 vessels, and made 35 arrests. We 
witnessed 24,000 pounds of drugs jettisoned into the ocean. At 
the same time, we intercepted 2,237 illegal migrants who were 
trying to come up through the same area of responsibility.
    Mr. Chairman, in a 5-month period, that equals 195 million 
cocaine doses we prevented from coming into the United States 
of America through a robust interdiction program, with the 
support that this committee gave us last year.
    In summary, our mandate is clear. During the roll out of 
the 1997 National Drug Strategy, the President said we have to 
do more to shield our frontiers against drug traffickers. He 
went on to say we have had some successes against trafficking 
and we can do better with interdiction and we are learning how 
to do it, citing the success of Coast Guard operation Frontier 
Shield as his example.
    Drug traffic in the transit zone remains a substantial 
threat to our national security. We must employ new tools to 
weave a seamless steel web of enforcement, and your Coast Guard 
is ready to do that.
    In closing, Mr. Chairman, I want to recognize your support, 
oversight and long-term commitment to the national 
counternarcotics
effort. As America moves into the next century, the Coast Guard 
stands ready to meet our responsibilities in this important 
effort, especially with your support.
    I am happy to answer any questions you may have, sir.
    Mr. Hastert. Thank you. Any written material you have there 
will be entered into the record.
    [The prepared statement of Admiral Kramek follows:]
    [GRAPHIC] [TIFF OMITTED] T1842.001
    
    [GRAPHIC] [TIFF OMITTED] T1842.002
    
    [GRAPHIC] [TIFF OMITTED] T1842.003
    
    [GRAPHIC] [TIFF OMITTED] T1842.004
    
    [GRAPHIC] [TIFF OMITTED] T1842.005
    
    [GRAPHIC] [TIFF OMITTED] T1842.006
    
    [GRAPHIC] [TIFF OMITTED] T1842.007
    
    [GRAPHIC] [TIFF OMITTED] T1842.008
    
    [GRAPHIC] [TIFF OMITTED] T1842.009
    
    [GRAPHIC] [TIFF OMITTED] T1842.010
    
    Mr. Hastert. Let me ask a question.
    Last week, there was a big news hit on Mexico and the 
certification of Mexico. One of the things that I said 
continually is that we probably ought to--before we certify 
Mexico, there are probably seven or eight things we should have 
been able to get extracted or leverage for that, and that 
advice wasn't taken and certification went on.
    One of them was a permanent maritime agreement. It is my 
understanding that within the Mexican territorial waters we 
can't stop any vessel and hold them, even for the time that the 
Mexican Coast Guard or Navy can get out and check that. How 
would this impact your job? How would that agreement work?
    Admiral Kramek. Well, we have that type of maritime 
agreement now with 18 of the 22 nations in the Caribbean 
region. The last time I testified, we had it only with 14 or 
15. We are getting more and more cooperation.
    There are a couple of nations now who haven't agreed with a 
maritime agreement with the U.S. Coast Guard and our Nation and 
the State Department. Mexico is one of those nations. But I am 
fairly optimistic that we are getting ready to reach one of 
those agreements.
    I say that because there were four or five other issues 
that we recently were dealing with with Mexico over the last 5 
or 6 years that we couldn't come to closure on, that all of a 
sudden have reached closure in the last couple of weeks. One of 
them, on the west coast of Mexico where you see the 234-metric-
ton threat on operation Steel Vice, in order to operate down 
there, so far from our west coast bases, we need logistic 
support. Otherwise, you have to take your oilers and everything 
else with you.
    Mexico has never agreed we could go in and refuel our 
aircraft or ships. They have just agreed in a diplomatic note, 
which I just received about a week ago, that we can now go 
through those logistic support agreements.
    We are in constant discussions with them. I just sent 
Admiral Saunders, my Chief of Operations, to Mexico with 
General McCaffrey on his last high-level delegation meeting to 
negotiate with the Mexican Navy on the ship rider agreement. We 
are in discussions.
    Why is it necessary? Well, I will go to the threat arrow 
where the 264 metric tons are coming up on the east coast of 
Mexico. I hope to launch another operation. I am able to tell 
you what the name is but, other than being in closed session, 
not the details right now and when it is going to happen. But 
it is going to be similar to Frontier Shield, only this is 
going to be called Gulf Shield in the Gulf of Mexico, to stop 
the flow of cocaine and marijuana from the east coast of Mexico 
to southwest Texas.
    It is a considerable threat, with over 14 tons of cocaine 
and 100 tons of marijuana coming by sea across into south Texas 
from that area. Without the help of Mexico in stopping those 
people when we chase them and they try to get away from us and 
go back into Mexican territorial waters, without this type of 
agreement, then that operation can't be successful. That is why 
we need their cooperation in that endeavor.
    Mr. Hastert. You are saying 200-some tons--even in the age 
of bifocals, I can't read all those numbers--but that shipment 
comes actually out of the north coast of Colombia and goes into 
Mexico, that you need that type of maritime agreement to stop 
that flow in the United States. Is that what you are saying?
    Admiral Kramek. It would be very helpful. Because we see 
when we work together with the other nations--for instance, we 
have maritime agreements with the Bahamas, and that is why 
OPBAT is successful, as the Coast Guard helicopters, DEA 
agents, Bahamian National Security Police, armed in the end 
game, is there to the tremendous deterrence of the smugglers. 
They hardly do air drops in the Bahamas anymore. We need that 
type of agreement with Mexico to deter smugglers from coming.
    Mr. Hastert. Ten days ago at least we got an agreement with 
Colombia, a maritime agreement. How does that impact what you 
are trying to do?
    Admiral Kramek. It has tremendous impact. We have been 
negotiating the agreement for 5 years. I am very happy that 
they have agreed to do that.
    This last year, we have sent Coast Guard training teams to 
Colombia to help train their coast guard, which is part of 
their navy, on how to do interdiction. We have been aboard 
their ships. I sent a Coast Guard cutter there, the Missouri 
Hawk, for a couple of weeks to train them. Ambassador Frechette 
was very complimentary of all that action.
    They have to see firsthand what we are talking about, and 
they just now in the last month signed the ship rider and 
maritime agreement with us. That will allow us to chase 
smugglers in their territorial sea. It will allow us to go 
directly to the Colombian Navy to get a statement of no 
objection, not having to go through our State Department and 
for foreign ministries, and they promised us response within an 
hour.
    I will point out it is not the full-blown maritime 
agreement, as robust as we have with other countries, but it is 
more than a good start; and we have already tested it twice, 
and it works. I am very, very encouraged by their cooperation.
    Mr. Hastert. So, basically, the amount of cocaine coming 
off the north coast or the west coast of Colombia could be 
impacted by that, with that type of agreement?
    Admiral Kramek. I would hope it would make it much more 
difficult for the smugglers and much more expensive for them to 
get there. We call that the departure zone, where it departs 
the source countries.
    This whole thing is set up, if you will, as a defense in 
depth. There are three areas we operate at. There is the 
departure zone, where it comes right out of the source; the 
transit zone, in between; and the arrival zone in the United 
States.
    This weekend we just had an interdiction. In fact, the 
staff just gave me a picture which I will share with the 
committee. In the arrival zone, right off the coast of Fort 
Lauderdale, FL, we seized 349 pounds of cocaine in a sailboat, 
estimated enough for 250,000 hits of crack cocaine. One person 
operating a sailboat had that. That had gotten by all of the 
other deterrents and was approaching the coast of United 
States, and one of our patrol boats picked it up.
    Mr. Hastert. I see on the map, too, and it may be just the 
way you have to draw the arrows, but you have a lot of movement 
off the coast of Venezuela. Is that indeed a fact or is that--
--
    Admiral Kramek. No, that is indeed a fact. I will tell you 
that we have great difficulties recently on sharing 
intelligence information with Venezuela. We have gone down 
there and trained their coast guard, which, again, is part of 
their navy, so that they would be responsible patrolling from 
the shoreline out to 50 miles from their border with Colombia 
all the way up to the Lesser Antilles. So far, we have been 
unable to share technical information with Venezuela.
    I would like to broaden my comment on that, Mr. Chairman. 
It is very clear to me now, having done this for more than a 
few years, that unless there is regional cooperation in the 
source countries along with the United States, this can't be 
successful.
    We have essentially shut down the air bridge, as you know, 
for the transfer of coca paste from Peru to Colombia. It is so 
successful it has driven the price of coca paste below 
alternate crops such as bananas and soybeans and pineapples. 
That was our goal.
    The smugglers have adapted now, and they have moved to the 
rivers, and we have river training going on to combat that.
    But what is worse is they are flying straight east into 
Brazil and then from Brazil up to Venezuela. So the State 
Department has a major effort under way now to get Brazil's 
cooperation with the United States, as well as Venezuela. The 
bottom line is all those countries need to have regional 
cooperation where they can go across each other's borders and 
get by our interdiction forces.
    Mr. Hastert. Let me ask you another pretty relevant 
question.
    We talked in my opening statement about dollars. You are 
concerned about the appropriations and things coming up. If we 
are successful in getting the maritime agreements that we hope 
to get and the patrols that you need to do, do you, in your 
recent budget, have enough equipment to be involved in the west 
coast of Mexico and the Gulf of Mexico and the Caribbean area?
    Admiral Kramek. We have enough equipment to be involved in 
the first year of a 5-year plan. The operation on the west 
coast of Mexico where you see Steel Vice is called Caper Focus. 
It is under way now, and it is managed and under the 
operational control of the Joint Interagency Task Force East. 
Admiral Shkor is short of assets in terms of Coast Guard 
cutters, maritime patrol air draft, gray hulls and logistic 
supports.
    Mr. Hastert. Gray hulls----
    Admiral Kramek. Those are Navy vessels.
    Mr. Hastert. White hulls are Coast Guard.
    Admiral Kramek. That is right.
    I sent out a message to the CINCs asking for their support. 
I think I will get more maritime patrol aircraft and Navy hull 
aircraft. But we won't be able to have a robust operation there 
until the next 2 or 3 years. We started out--now, what do I 
mean by that? We have some measures of effectiveness. Nobody 
has really ever put down the measure of effectiveness for drug 
interdiction. ONDCP has started a new study on this. I think 
they probably testified to that already.
    Everybody in America is concerned about the Government 
Performance and Result Act and how well we do on this. I can 
tell you when we put together operation Frontier Shield, there 
had been some studies done which we used that indicate that if 
we can contact and be seen by 40 percent of the smugglers who 
leave, 80 percent of them will turn back and go the other way; 
and we will interdict and intercept 10 percent more.
    So for every 100 smugglers that leave Colombia, we will 
either deter, disrupt the supply rights, or seize 90 percent of 
them. Only 10 percent of the cocaine leaving will get through.
    We are nowhere near any one of those threat arrows being 
able to lay down the intelligence, the sensors of radar and the 
force structure necessary to do that. But that is what we did 
when we surged that operation in Frontier Shield.
    I think for that one, because it is a small area of 
responsibility, we intend to keep up the pace against that 
threat and keep up those results. Because our goal was to not 
deny the smugglers Puerto Rico and the Virgin Islands as a 
trafficking route. We are successful, and in the 1998 budget 
enough money is being asked for to sustain that operation and 
to sustain Laser Strike, which you are familiar with in South 
America on the air bridge.
    It will be a couple of more years before we are back to 
where we were in the early 1990's, where we can sustain the 
assets we need on the east and west coasts of Mexico.
    Mr. Hastert. Admiral, when you look at this issue and you 
are trying to coordinate gray hulls and white hulls and working 
with the Navy, what type of Navy ships do you work with and 
coordinate with, especially in the Caribbean area?
    Admiral Kramek. In the Caribbean area, we have some 
frigates that we work with. Sometimes they are under our 
tactical control; sometimes they are under JIATF East.
    In the case of Frontier Shield, the Navy designated some of 
their new 160-foot patrol craft, Cyclone class vessels, 
underneath our operational control; and we share these back and 
forth, whoever the Commander of the particular mission.
    Maritime patrol aircraft are key. Not just P-3s and C-130's 
but we are also using AWACS, P-3s with roto domes, and then 
Customs jets, Citations and Coast Guard Falcons as interceptors 
to deter the air traffic.
    Mr. Hastert. One of the questions that we had on the 
Mexican certification and something that didn't happen in 
Mexico, we were promised in 1993 three radars to be placed in 
the south of Mexico. I don't know what the radar capabilities 
are of whatever seacraft we have in that area, whatever ships 
we have in that area. I know we have planes.
    What is the impact of not having that radar, and is there 
some way we can make up for that?
    Admiral Kramek. Well, the Mexicans don't have the 
capability to detect and monitor, using their own forces, drugs 
coming into their own country.
    I would tell you that I have again recent information just 
in the last 48 hours that the Mexicans are going to move some 
of their naval forces further south, closer to the interdiction 
zone, to try to participate in that.
    The bottom line is we pretty much have to find them, detect 
and monitor them and let the Mexicans know where they are 
coming from now--here they come, please react and respond 
because they are coming into your territorial sea.
    There is a time lag there of a few hours; and, most often, 
if it is an air target, it is enough for the people to get 
away. We have to have a hand-off to the Mexicans. They have to 
have their own inherent capability for us to hand off a radar 
contact, much like you find when you fly across country and one 
FAA control region hands off to another. That is the way we do 
it with other countries. That is the way we are going it have 
to do it with Mexico.
    Mr. Hastert. So even with a maritime agreement, closer 
cooperation is more important?
    Admiral Kramek. It is absolutely important in the air 
bridge, and it is essential in the maritime agreement as well.
    Mr. Hastert. You mentioned a couple minutes ago a ship 
rider agreement. Can you expand on what that is, No. 1, and how 
does that relate to the current authority you have to put law 
enforcement people in Department of Defense vessels?
    Admiral Kramek. The ship rider agreement we have with 
foreign countries is much like our law enforcement attachments 
on the U.S. naval vessels. If there is a U.S. naval vessel 
underway in the Caribbean, it probably has on board a Coast 
Guard law enforcement detachment of about seven personnel who 
have the authority to enforce U.S. laws on the high seas 
against any U.S. flag vessel and with permission of a foreign 
country, either that country's laws or our laws.
    Our armed forces are not allowed to enforce law because of 
the concept of posse comitatus, but the Coast Guard can as a 
law enforcement detachment on a U.S. Navy vessel.
    The ship rider agreement works much the same way. We will 
bring a Bahamian with us on one of our Coast Guard cutters; and 
if a smuggler is entering Bahamian waters, we have permission 
to chase in the Bahamian waters. The law that is enforced is 
enforced by the Bahamian law enforcement person we have on 
board.
    I do have the same thing on the high seas with fishery 
patrols. North of Midway, south of the Aleutian Islands, I have 
Chinese ship riders on board the ships. So when we find people 
violating the U.N. sanctions against drift net fishing, the 
Chinese ship rider can enforce Chinese laws on those Chinese 
violators.
    It is a concept we have proven in maritime over the last 10 
or 15 years that is very successful.
    Mr. Hastert. Do you anticipate with maritime agreements 
then that you will have Mexican ship riders and Colombian ship 
riders as well?
    Admiral Kramek. That is correct.
    Mr. Hastert. Do you have it now?
    Admiral Kramek. We have some Colombian ship riders. We 
don't have an agreement with Mexico yet on the ship rider 
agreement or on a maritime agreement. We are still negotiating 
with them.
    Mr. Hastert. Several minutes ago you talked about the 
riverine strategy. Of course, as we try to break down the air 
bridge between Colombia and Mexico and Mexico and our country, 
especially South American nations and Mexico, we have seen more 
and more of the riverine system. It is going out of Bolivia and 
Peru into the Amazon basin and up through--it especially 
impacts Brazil and Venezuela. You talked about Venezuela a few 
minutes ago. Tell us about your assessment of what is 
happening.
    Admiral Kramek. Smugglers are going to the river with the 
coca paste to try to move it up to Colombia, in particular to 
Colombia and a little to Venezuela, so it can be made into 
cocaine.
    SOUTHCOM, which is part of our interdiction scheme, as well 
as JIATF West in San Francisco, JIATF East in Key West, JIATF 
South in Panama, the Operations Officer, General Wesley Clark 
in Panama, whose SOUTHCOM is also in charge of Joint Task Force 
South for counternarcotics, with a focus on South America.
    They have put together a very robust program that I have 
asked them for as the Interdiction Coordinator called a 
Regional Waterways Management Strategy. Riverine is what we are 
talking about. I have General Clark's concept of operations for 
that. We are now in country in places like Colombia, Bolivia 
and Peru, and I believe recently in Venezuela, with teams to 
train those forces on denying smugglers routes on the Amazon 
tributaries.
    This team usually consists of three supporting commanders, 
some from the special operations command at MacDill Air Force 
Base, a contingent of U.S. Marine Corps personnel provided by 
General Krulak to SOUTHCOM, and a contingent of Coast Guard 
personnel provided by myself. They all report to the CINC South 
in Panama. He deploys them throughout South America with the 
approval of the U.S. country teams and embassies.
    In Bolivia, we have trained the 175-person riverine force 
called the Blue Devils as part of the Bolivian Navy in order to 
do this operation over the last 2 years. There is also a school 
we have established in Trinidad and Bolivia that trains these 
other nations as well. So we are trying to develop the inherent 
capability for a regional focus on riverine or waterways 
management throughout South America using that concept, and 
that is well under way.
    Mr. Hastert. A few minutes ago we talked about--you talked 
about--the first time you talked about the riverine system, 
trying to squeeze down the ability of getting this product to 
market and the ability, really, the interdiction ability that 
you have and why maritime agreements are so important.
    There has been talk about some correlation, where you can 
tell when you squeeze down those markets, you start--when you 
squeeze down the ability to interdict and actually have some 
success in that area, you also affect the markets. There was an 
IDA study that talked about that. Will you comment on what you 
have seen and your ability to squeeze down on interdiction and 
what effect it has had in this country?
    Admiral Kramek. Well, I use IDA for two purposes. First, I 
have the IDA analyst brief all of the operational commanders 
who are responsible for interdiction once a quarter. He also 
provides a monthly product.
    The IDA analysis is what led us to operation Laser Strike 
as you know it now. That is, they were able to show us where 
all the air tracks were occurring in the air bridge between 
Peru and Colombia. We were then able to work regionally with 
Peru and Colombia and with our interagency group to provide 
them technical information to disrupt 120 flights this last 
year, as you know, and essentially shut that source of supply 
of coca paste down that was going into Colombia.
    IDA further goes on in their study to try to show how that 
affects price and purity on the street.
    The study that they recently did has been approved by the 
Department of Defense. The Department of Defense paid for that 
study. It was reviewed by them, and so I think my comments 
would be, it met their approval process. Whether I believe in 
it or not, I can tell you that I base operations on IDA 
analysis. They know where the tracks are.
    I would be delighted if I could see a sharp upturn in the 
cost of cocaine, because I know that if we can increase the 
price of cocaine by 50 percent, that reduces the demand by 25 
percent. That is a known statistic. So, I also know that for 
every modest increase in interdiction, we reduce demand by over 
a percent in this country, and that is part of IDA's analysis 
as well.
    I think the work they've done is valuable. I think it's 
still statistically being debated by those who did the IDA 
analysis and those who do the RAND analysis. That debate by 
statisticians will continue on. Overall, I think they have 
value. I get bang for my buck when I--when they show me the 
tracks and where the bad guys are and we put our assets on that 
threat arrow or on that target, we get good results.
    Mr. Hastert. I think that is important, because we need to 
know the basis for where you put the bang for the buck and what 
you expect out of that.
    A couple of questions; then I am going to recognize my 
colleague from Texas.
    One of the things that you said is that you need the 
ability of our radar in the area. We used to have pretty 
liberal use of AWACS, especially out of SOUTHCOM. That is gone 
to a large degree. You use the P-3s with the rotodomes now. Do 
you need more of those?
    Admiral Kramek. We need the ones that we just recently 
ordered as a result of the increase in appropriations in the 
1997 budget that this committee identified the last session of 
Congress. I say that because we had a lot of use of AWACS, but 
there were no national priorities for AWACS then. That was 
before Desert Storm and Iraq. That was before what is going on 
in the Middle East. That was before Bosnia.
    AWACS are a national asset. Seeing how hard it was to get 
what we call rotodome time, AWACS time, I met with General 
Fogelman, Chief of Staff of the Air Force, and I said the 
interdiction community has as a low-cost rotodome aircraft that 
Customs has been running for years. It's a P-3 with a rotodome 
on it. Would you have your staff look at whether or not it 
would be valuable to buy more of these and that would free up 
AWACS as a national asset? They agreed. Chief of Staff of the 
Air Force supported me in that.
    So the P-3 rotodomes will be sufficient, along with some 
AWACS time we get. We also get some E-2-C time, I should point 
out, which is the same type of detection and monitoring but 
only has 4 hours of endurance rather than 8 hours endurance. So 
we use all three aircraft.
    Is it sufficient? Right now, when we get these other two 
aircraft on board in a year, it will be sufficient to share 
amongst all the operational commanders, and in fact I am very 
encouraged by what I see as a reduction in air smuggling. 
Because we have been successful there with OPBAT, with air 
drops off of Puerto Rico, with the air bridge down in between 
Peru and Colombia, more is moving to the water both in the 
maritime regions and to the rivers.
    So in general, yes, I think we will have enough of what we 
have to share, and it's a very closely monitored asset that I 
work out with the joint staff to make sure each one of the 
operational commanders has enough rotodome time.
    Mr. Hastert. I recognize our colleague from Texas, Mr. 
Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    It is good to be here and to discuss what I think is 
probably one of the most important tasks that we have 
undertaken, to try to halt the flow of narcotics into our 
country, and I commend the Chair on spending the time of this 
committee to look at this issue, which I think is of utmost 
importance.
    One of the questions, Admiral, that came to my mind that is 
certainly on the mind of many of us in Congress currently, 
relates to the cooperation that you have seen or perhaps not 
seen, from the Government of Mexico.
    As you know, the President recently certified Mexico as a 
cooperating partner in the war and the fight against drugs, and 
many Members of Congress feel that perhaps we should decertify 
Mexico, and that issue will come to a vote here in the next few 
days in the Congress.
    From your perspective in working with the Government of 
Mexico on the issues that you have charge over, could you tell 
us what your experience has been in terms of the degree of 
cooperation, or lack thereof, that you have seen from the 
Government of Mexico?
    Admiral Kramek. The Government of Mexico and the Coast 
Guard have worked closely together for years and years, 
especially the Mexican Navy and the United States Coast Guard. 
But our foundations of working together were based on search 
and rescue. We have moved that good relationship into the area 
of maritime law enforcement, not only for drugs but, I have to 
point out, for fisheries. Much of our fisheries conservation 
problems in the Gulf of Mexico have to do with Mexico as well, 
especially in the southwest Texas border.
    Working with Mexico takes a lot of patience and a lot of 
time. Mexico has always agreed to do coincidental operations, 
not joint operations. That means--they have constitutional 
barriers that prevent them from working together with us like 
many other countries in the world can, and so we work together 
so that we plan to show up in the same place at the same time 
to do a particular operation.
    It's a slow process. I have seen over the last year or two 
their cooperation start to increase over previous levels, but 
it has a long way to go. We need ship rider agreements; we need 
better logistic support; we need a better hand-off of technical 
information.
    I can say 2\1/2\ years ago, if I had a large aircraft 
flying from South America with 10 tons of cocaine in it and we 
were in the process of telling Mexico it was getting ready to 
land in Mexico and where, it was doubtful that I would get 
cooperation from Mexico to do anything about it. That is not 
true today. They will take action now. They will react on it.
    A lot has to do with the high-level contact group that 
General McCaffrey has met now two meetings of that group in 
Mexico and then his visit with the top officials of Mexico this 
week. So I see their cooperation improving, but it has a long 
way to go.
    Mr. Turner. You have noted that cooperation is improving 
over--improving, did you say, over the past year and a half?
    Admiral Kramek. I would say over the last 2\1/2\ years.
    Mr. Turner. In terms of your evaluation of the attitude of 
the Mexican Government, would you anticipate or would it be 
fair to anticipate that there would be continued cooperation 
from the Government of Mexico, or do you see any impediments to 
furthering the cooperative spirit that you have noted in the 
past year and a half?
    Admiral Kramek. I see no impediments; I only see continued 
progress. In fact, I've seen more progress in the last 6 months 
and year than I've seen in the last 5 years before that.
    Mr. Turner. Thank you. Thank you, Admiral; and thank you, 
Mr. Chairman.
    Mr. Hastert. I thank the gentleman from Texas, and now I 
pass the mic to the distinguished vice chairman from Indiana, 
Mr. Souder.
    Mr. Souder. I would like to point out that while at the top 
we are continuing to try to work with them, what appears to 
have happened while Mexico may not have cooperated in the past 
years--in the years back, in the last couple of years they 
appear to be cooperating and handing the information possibly 
over to the cartels themselves.
    So sharing the information from the drug czar, as we 
learned from the Department of Justice, from DEA, and other 
agencies, may not have turned out to have been very wise. We 
are even worried whether we had compromises in every attempt to 
try to--even try to arrest somebody at a wedding. They appear 
to have shared the information.
    So we have to be very careful when we say someone is 
cooperating, because it may have been cooperating for ulterior 
motives, much like what happened in Colombia between the two 
cartels when they went after each other. But it is at least at 
the top levels, the mere fact they got rid of the drug czar, a 
hopeful sign that the President at least remains committed, and 
hopefully we can get some cooperation further down the line.
    One of the things that was in the news today is, the 
Commander of SOUTHCOM had said that he felt that he was 
effectively working with the Colombian armed forces in at 
least--nobody is talking about the President, kind of the 
reverse of the Mexico situation, but that they were cooperating 
in the armed forces level.
    Have you seen that? Have you had decent cooperation out of 
Colombia? Have you seen any change? The other thing that has 
been in the news the last few days is that Samper is 
threatening to stop eradication efforts. Have you seen any 
change in the relationship with Colombia since the 
decertification announcement?
    Admiral Kramek. Since decertification a year ago in 
Colombia, they were decertified last year as well as this year. 
From a military-to-military standpoint, from a Coast Guard-to-
Colombian Coast Guard-Colombian Navy standpoint, I have seen 
greater cooperation than in the past. We just hammered out a 
maritime agreement together with the Colombians.
    We have just had a Coast Guard cutter, the Mohawk, call on 
Colombia for a period of several weeks and train their 
personnel in drug interdiction. So from that standpoint, I have 
seen their willingness to cooperate and act together jointly 
better than we have before.
    Mr. Souder. Before you go on, can I ask you to clarify? You 
are saying that prior to decertification they weren't 
cooperating very much. When we decertified, the cooperation 
actually got better with Colombia?
    Admiral Kramek. In my view, it got better with Colombia, 
correct. Concerning the eradication, eradication is back on 
track, I think, as of this weekend. Colombia states that there 
was some technical reasons as to why they stopped it having to 
do with the type of defoliant and protection of the people who 
were eradicating and things of that nature. I am not quite sure 
of all the technical reasons, but I think that eradication is 
back on now and the country is again supporting that.
    As with Mexico, there is a long way to go. But I can recall 
if I had testified 4 years ago and we had an operation 
concerning Colombia, I would testify it would take me 2 days, 
sometimes 3 days, through diplomatic channels to get the 
agreement with the country of Colombia to help us interdict a 
ship, even if I was already on board that ship, to get the 
diplomatic clearances I needed to either enforce Colombian law, 
United States law, or turn it back over it them. That is done 
in 1 hour now. So I would say that we are working toward better 
cooperation but we still have a long ways to go.
    Mr. Souder. We are having--before I get into a couple of 
other specifics, a general question is being thrown at all of 
us on interdiction, and certainly the media's first focus on 
that we have a drug problem was helpful.
    Lately, most of the emphasis seems to be that nothing 
works. Interdiction doesn't work; the treatment programs are 
not working; D.A.R.E. is not working. I am not sure whether 
they think we should legalize everything or whether it is just 
kind of general cynicism. But it is clear when I intercept a 
ship or vessels seized, we keep that amount of drugs from going 
to the streets.
    But give the cost; how do you--and I am sorry I missed your 
testimony; I assume some of that was in the testimony. But 
succinctly, what would be a way to say it does work. Do you 
need more money? If so, what do you think we will get for that 
money? How much also is in just--like there are unintended 
consequences in this case, unintended positive consequences of 
either forcing if you had more money like the 1991 levels and 
what you are doing, how much of it forces them to go way up to 
the north or use other routes that, in effect, drive their 
costs up as it comes into the country or decide to go to 
another country?
    Admiral Kramek. What I think you just described is the 
reason why we need a coherent strategy. I believe we have a 
coherent strategy for the first time in years in 1996, with the 
President's 1996 strategy. We just rolled out the 1997 
strategy. I would recommend that. I have recommended it to my 
staff to read, and especially the appendix to that strategy, 
which is the budget for all the agencies involved in carrying 
out that strategy. The appendix is four times thicker than the 
strategy, especially the classified annex to that strategy 
which lets all Federal agencies know what they should do. It is 
classified ``Secret,'' and I think that at least in a closed 
hearing of this committee you should review that, because there 
are a lot of things that I think you would be pleased to see on 
how we are tasked by that strategy.
    Now, that strategy is part of the President's 10-year plan, 
and along with that 10-year plan there will be 5-year budgets 
to support that plan, of course updated every year. That 5-year 
budget is underway now.
    In the classified strategy--and this is unclassified--I can 
tell you this: I, as the Interdiction Coordinator, have been 
tasked by General McCaffrey with putting together a 5-year plan 
for all the assets that agencies require to accomplish the 
transit zone strategy that's called out in the plan, not 
dollars, but what ships, planes, radars--what things they need 
to do the job to the degree that the strategy calls for.
    Having said that, the systems approach that ONDCP is using 
is the best one that I know as a manager. We are throwing out 
the things that don't work; we are trying to keep the things 
that work. In another year or two, the measures of 
effectiveness will be completed. This will be part of the 
Government Performance and Result Act. Congress will be able to 
provide oversight to all of those different types of things 
that worked, and you'll want to keep those because the benefits 
will exceed the costs or they will meet their performance 
measures.
    As an example, I want to stop 80 percent to 90 percent of 
the drugs ever reaching Puerto Rico from Colombia. I know what 
laydown of assets and what intelligence I need to be able to do 
that I need to articulate to the administration to get the 
budget to do that and then have my oversight committees approve 
that, and 1998 is the first year of the 5-year budget plan that 
agencies are coming forward to ask for those resources.
    Now, what works and what doesn't work? This is a balance 
between demand programs and supply programs, and we need to 
keep the ones that work. Some demand programs don't work; some 
do; same with some supply programs.
    Frontier Shield works, and that's why we provided this 
demo, so that you could see the type of thing that works. Will 
that work everywhere? No, that can't work off the west coast of 
Mexico. There is a 2,000-mile coastline with no choke points. 
You can't use small patrol boats and the types of things that 
we used in that other area of responsibility.
    But let's look at what has worked since 1985, because I 
think those who write and say that the investment we have made 
on interdiction or the supply side isn't working are wrong. In 
1985, there were 5.7 million cocaine users in the United 
States. In 1995, there were 1.5 million cocaine users in the 
United States. That is a substantial reduction.
    Now, I know that crime is high; I know that the use of 
cocaine is up. There is about a 300-metric-ton demand in this 
country, and we have some chronic use. Two-thirds of all the 
cocaine use is used by chronic users, so some of the treatment 
programs proposed by the administration attack that. That is 
something you might want to do.
    We also know that if we disrupt supply routes, some 
wonderful things happen. At the same time you held a hearing in 
May about 30 percent or 28 percent of the cocaine coming to 
Puerto Rico. I met with Governor Rossello from Puerto Rico and 
he said, ``Commandant, I have a problem. I've had to call out 
the National Guard because the drug flow into Puerto Rico is so 
severe, the traffickers are paying off the people in Puerto 
Rico to transshipment in drugs, not in money. Now I have 
terrible crime and murder in the projects, and I've had to call 
out the National Guard. By the way, many of those traffickers 
were Dominicans.''
    So we have launched Operation Frontier Shield and another 
operation, and this last year we have reduced the flow of 
Dominican migrants into Puerto Rico by 80 percent from what it 
was. We have reduced the flow of drugs by Frontier Shield to 
Puerto Rico significantly. I would hope that a year from now 
Governor Rossello would say, ``We don't need the National Guard 
anymore. While things aren't perfect, they're really improving. 
Our crime is down, our murder is down, our drug interdiction is 
down, and, together with Customs and DEA and DOD, we have 
removed Puerto Rico as a transshipment point for drugs into 
this country.'' We need to keep measuring that. If we are not 
doing that, then we're not effective.
    But I think we need to take a look at the long-term trends 
on the investment that is made. I think the investment of 
interdiction is minuscule compared to the total drug budget. 
The entire interdiction budget for this country is 10 percent 
of the total counternarcotics budget.
    In terms of the Coast Guard, 9.8 percent of my total budget 
in 1998 will be for drug law enforcement. I don't think that's 
too much, and I think we get a lot of bang for our buck. This 
operation alone in 5 months kept 195 million cocaine doses off 
the streets of the United States. I don't think we can afford 
not to do that.
    Mr. Hastert. I thank the gentleman. We will do a second 
round here.
    I just wanted--you were talking about two-thirds of all the 
cocaine goes for chronic users. I think the thing that we need 
to watch out for is eight kids for every one chronic user that 
are using, casual use, could end up being chronic users, and of 
course the kids and the gangs and the ones that create some of 
the problems too.
    One of the things, you were talking about the Dominican 
Republic. There was in the press today, and I wanted to ask 
you, the neighbor of the Dominican Republic, Haiti, it talks 
about there is a release out of Port au Prince that says that 
almost all of the cargo, a great deal of the cargo, headed from 
the United States to Haiti gets diverted and doesn't pay the 
tariffs. Is that something that you are involved in, or is that 
really a domestic problem of the Haitians?
    Admiral Kramek. It is something we are involved in 
indirectly. We just had a high-level administration meeting on 
Haiti where we discussed that. But I recently went to visit 
Haiti to look at that problem in November, and I met with the 
Ambassador and the Prime Minister. The Ambassador has asked 
that the Coast Guard lead a team, an interagency team on 
restoring the ports in Haiti. I mean, this is a country that 
depends almost 100 percent for its economic trade on the 
maritime region.
    Sixty percent of the cargoes coming into Port au Prince are 
unmanifested. A lot that does reach the dock gets stolen. The 
harbor is unsafe to ships that are sunk there. The aids to 
navigation doesn't exist. It is a huge infrastructure that is 
required for us and other nations as well, to help Haiti 
restore their maritime infrastructure, and, in my estimation, 
it doesn't exist sufficiently enough to make their economy--put 
their economy back on its feet again.
    Mr. Hastert. Consequently, most of that cargo that would 
come in would be tariffed and at least give them some revenue 
runoff of, and they are deprived of that.
    Admiral Kramek. It would be--I will tell you that we're 
going to lead a team of Customs, Corps of Engineers, NOAA, and 
others working with the interagency team.
    One of the reasons I went to visit was to stand up and give 
awards to the first Haitian Coast Guard station, who helped us 
with two drug seizures there, as a matter of fact, both about 
600 or 700 pounds of cocaine.
    The Ambassador has asked us to set up two more Haitian 
Coast Guard stations, one in the north coast and one in the 
south coast. The Haitians are now working along with us to do 
that, and we are now working on our second Coast Guard station 
and training those people.
    So it will be a long haul, but those things need to be 
done, Mr. Chairman, in order to make the Haitian economy 
viable.
    Mr. Hastert. The other side of my question was basically 
that there is nothing much to export out of Haiti, as I 
understand it, so a lot of those ships are actually backhauling 
refugees or illegal aliens and/or narcotics.
    Admiral Kramek. What they will be able to bring out of 
Haiti is the light manufacturing and that type of export. 
Materials are brought into Haiti by businessmen, and they are 
made into clothing, as an example, and then taken out because 
the labor rate is so inexpensive. But you need a good 
transportation system in the maritime to allow that to happen. 
It is very fragile right now.
    Mr. Hastert. One other unrelated question, to go back to 
just some clarification: You talked about the P-3s. You have 
two P-3s; is that correct?
    Admiral Kramek. Well, there is a lot more than that. I'm 
not sure how many there are. Two new ones have just been 
ordered with the 1997 budget addition that was provided by 
Congress. I want to think that there is probably four or six of 
them, maybe even more than that; I'm not sure.
    Mr. Hastert. Do you have intelligence capabilities on the 
two new ones? Do they have the rotodomes?
    Admiral Kramek. Yes, they do.
    Mr. Hastert. You fly two P-3s, and they run about 8 hours. 
What do you need for a 24-hour watch?
    Admiral Kramek. Well, in a lot of places, based on intel., 
we don't use them 7-by-24, 7 days a week, 24 hours around the 
clock. Most of these smuggling planes don't fly during the day; 
they only fly at night.
    But I think we would have to talk about it in a closed 
hearing. If you would see where the laydown was and add up the 
number of planes, I guess what I am reporting to you is, based 
on the amount of AWACS allocated now, the P-3 rotodomes in 
service, the two new ones that are on order, there should be 
enough of that asset available to take care of the air threat 
that we know it today. That is the air threat, not the surface 
threat. That is to look for air targets and detect those that 
we have sorted out.
    As important to some of those P-3s is the third ROTHR, 
over-the-horizon radar, that is needed to be installed in 
Puerto Rico. It is funded, but there is an environmental 
problem with getting it installed.
    Mr. Hastert. One last comment or question: In one of the 
questions that you answered, you said that you don't think that 
we would be back to the level that we were in 1992, 4 years 
out. I'm not sure it was 4 years out or 3 years out, what you 
said. What things would you do? What are you building in the 
next 3 or 4 years so that we come back to the level that we 
were in 1992?
    Admiral Kramek. I don't think that we should be at the 
level of hardware that we were at in the early nineties, but we 
should be at or better the level of effectiveness that we were. 
We have a different way of doing business than we had then.
    DOD, the Department of Defense, has stepped up to the 
plate, in my estimation. They were just given the detection and 
monitoring mission as lead agency in 1989, and over the last 3 
or 4 years they have successfully provided a communications 
system. They have fused intelligence. That means--and in the 
late eighties we didn't have this. We are now able to take all 
source intelligence from our national security systems, merge 
it with all of the law enforcement agencies--DEA, FBI--all of 
that information is all merged together in our joint 
interagency task forces, and a product is put together for the 
operator, a tactical product that he can operate on now.
    So the laydown of what we have would look a little bit 
different, and, rather than just conducting very robust 
patrols, we had a lot of ships and aircraft conducting a lot of 
patrols. We would rely much more heavily on intelligence. I 
think in the late eighties and early nineties we probably 
relied on intelligence 20, 25 percent of the time. We operate 
on acute intelligence more than 70 percent of the time, and we 
should be moving to 90 percent. We have great intelligence 
assets in this country, and we need to focus them so we can 
take these very high valued assets and put them in the right 
place.
    Mr. Hastert. Thank you, Admiral.
    I yield now to the gentleman from Texas, Mr. Turner. The 
gentleman has no questions.
    The vice chairman from Indiana, Mr. Souder.
    Mr. Souder. I want to just briefly followup on the funding 
and strategy question, too, because one of the things that we 
have seen is that nobody is arguing against treatment and 
prevention. We are increasing the budget 40 and 50 percent in 
the budget over the last number of years, whereas the 
eradication number has dropped and the interdiction number is 
comparatively flat.
    The core--and we realize that cocaine use is down; 
methamphetamine is up; heroin is up. Crack is a form which is 
not counted in that cocaine number, and it is up most 
alarmingly in kids. As we have penetrated the higher-income 
groups and we have left those who are at most risk most 
vulnerable, while we need to treat, just focusing on that is 
not going to be enough, and we are trying to sort out how much 
needs to be spent on interdiction and eradication, because if 
we can get it before it gets there, as it comes out, it is like 
going out like this, and where it starts is pretty pointed.
    One of the things--see if I have this general concept right 
as a layperson, that we used to always think of Florida and, to 
some degree, New Orleans area as major transit points, and as 
we spent a lot of money on focused interdiction, the 
traffickers logically decided to find other routes. We pushed 
it partly into Mexico, partly into Puerto Rico, and up into New 
York and other routes.
    But is it not true that what we are gradually doing as we 
invest in this over the long term is building almost an 
international defense system that, when you defend one area, 
they move to another, but that if you don't leave some residual 
defense in that area, they will come right back?
    Admiral Kramek. Well, that's why you need international 
cooperation and international agreements. No one country can do 
this by themselves. If four or five nations in the Caribbean 
decide not to join an international cooperation, the smugglers 
will go there.
    One of the places which we don't have a maritime agreement, 
which might be surprising to everyone--it is to my people when 
I mention it to them--is Haiti. We just finished restoring 
democracy in Haiti, and there is no international maritime 
agreement with Haiti on drug smuggling or repatriation of 
migrants, because their new constitution doesn't permit it.
    Mr. Souder. We didn't get any kind of agreement or----
    Admiral Kramek. Correct, but we are negotiating with them, 
and, again, that is one of the reasons I just visited there.
    Now, what would happen if Haiti never agreed to cooperate 
with us because their new constitution doesn't allow it? They 
are going to be a target for smugglers. They will be a weak 
point, and that is what we point out.
    I just had a member of the high-level group in the 
administration just travel through, this last week, 11 
Caribbean nations with my chief of operations in that area and 
in an effort to hammer out in places like Barbados and others 
that don't have these agreements with us that they really need 
to for their own regional security. This is an international 
thing. It is international cooperation. You can't leave any 
holes, or the smugglers will go there.
    I don't agree that you need to be every place, but you need 
to know where they are going from an intelligence standpoint so 
can you move your most reliable resources there quickly if you 
can.
    Again, I am struck by the balance that the new 1996 and the 
1997 strategy has on education and on prevention and on 
treatment and on interdiction. It is balanced.
    I don't agree that we should get trapped and play one goal 
off against the other as being more effective. I think there 
are different objectives that may not work. But the fact of the 
matter is, I believe the long-range strategy is going to 
require more money by the Federal Government in all areas: 
Treatment, prevention, interdiction, source country.
    I mean, if you really want to stop it, nobody will grow 
coca leaves in Bolivia or Peru. Peru is the center of gravity; 
60 percent of all the coca leaves are grown in Peru; 80 percent 
of the cocaine that comes into the United States comes from 
coca leaves in Peru. It is essential that we make the source 
country strategy work, and so we have to make some investment 
in that area, and we haven't, as the chairman pointed out in 
his opening statement. The strategy exists, but the funding for 
it has never been provided because of various social, economic, 
and political reasons, not only in that country but our country 
as well.
    Mr. Souder. We get paid to make decisions on how money is 
allocated because we have less of it to spend in the future. 
When we have one category increasing at 40 percent and another, 
I think, at 50 percent and one going down and one flat, we need 
the information with which to decide whether that decision was 
a correct decision because there is not more money to throw at 
all the categories. If you say it goes into drugs, then it is 
less for education or less for health or less for a retirement 
program. We could print it, but it doesn't maintain its value 
if we do that. So we have to make some tough decisions.
    One of the questions--I understand that we cannot be equal 
force everywhere, but isn't it true that, if we had radars and 
our equipment concentrated in the Caribbean and then they moved 
over to Mexico, that we would need some residual cooperation in 
joint however you do it, Department of Defense, in that area? 
Because the logical thing to do would be, the stronger you get 
in the Gulf of Mexico, the more they come back around to the 
Pacific side.
    Admiral Kramek. That is exactly right.
    Mr. Souder. If you transfer resources to the Mexico side as 
opposed to getting additional resources, they are going to go 
back to the shorter side.
    Admiral Kramek. Yes, but we're not transferring those 
resources.
    I could tell you that Operation Caper Focus, you don't see 
that on the chart. It's an operation where the 234-metric-ton 
arrows go up the west coast of Mexico. There is a strong 
operation there now and has been for the last couple of months. 
The 1998 budget for all agencies continues to support that.
    We won't get up to the level of activity we need there for 
the next couple of years, but this last year we have had some 
very, very dramatic operations there. The Don Celso, a vessel 
with 13,000 pounds of cocaine, was seized off of Ecuador and 
brought in there.
    A vessel called the Oyster, which I particularly went to 
look at, with over 5,000 pounds of cocaine, came out of the 
west coast of Colombia heading up toward Mexico. A Coast Guard 
law enforcement detachment aboard a Navy vessel boarded it, 
found what they thought was the cocaine, using IONSCAN, our 
technical equipment, and part of the funds appropriated by 
Congress this last session, with this committee's help, helped 
us buy more technical equipment to detect cocaine on board.
    But the bottom line is, we used the Department of Defense, 
Customs, DEA, and the Coast Guard; arrested--brought the ship 
into Panama; got the authority of Honduras--this was a Honduran 
flag vessel with Colombian crew--arrested the Colombians. They 
are in jail in Miami.
    The vessel was then brought through the Panama Canal and 
properly searched. We found 5,000 pounds of cocaine that you 
couldn't find underway because it was inside the fuel-oil tanks 
in another tank. The boarding party had to kill 14 rats on the 
way to get there, and this thing was really horrible.
    When I went on board--they didn't want me to go on board. 
I'm glad I went on board and put on coveralls and a respirator 
to see where this was. Down underneath the engines, almost in 
double bottoms which looked like sewage, was a tank with a 
cover on it. We first had to pump the oil out, and inside that 
tank was another tank with the 5,000 pounds of cocaine. That 
was all going up the west coast of Mexico, and we have had 
recent major seizures there because of good intelligence, 
because of some cooperation with Ecuador and some with 
Colombia.
    So you keep the pressure on in all of these places. Are you 
going to stop it? No. You are going to deny the routes and make 
it tougher for the smugglers to get here, and you're going to 
give credibility to or demand reduction and education programs 
and give us the time to reduce demand and to educate the 
children.
    All law enforcement officers would agree, I believe, with 
me and with this committee, that the long-term goal is to 
reduce demand in the United States. That's a long-term 
commitment. You can't keep the borders open, because if we left 
the borders open, look how many more doses of cocaine could 
come up. The price would be reduced, and then you have a two-
to-one relationship. If the price is reduced, the demand goes 
up by a half.
    Mr. Souder. Which is what is happening in our home area 
right now, because we're getting flooded from the outside, and 
no matter how hard you work at the schools or how many 
hospitals you fill with treatment, the street prices drop.
    The headline in the newspaper was about a fiery crash on I-
69 where a young boy, a high school senior, was on cocaine and 
marijuana, flipped his car over on top of another car of 
somebody from my hometown. That person had their legs busted, 
and it ran into another car. I think two deaths and six 
injuries because somebody was high on cocaine, because the 
stuff is flooding, and it is an upsetting process.
    Just for the record, you mentioned Haiti and Mexico don't 
have a maritime agreement. Who would have maritime agreements?
[GRAPHIC] [TIFF OMITTED] T1842.011

    AAdmiral Kramek. I will provide that for the record. But 
there is at least five or six countries right now, and I would 
like to provide that for the record.
    Mr. Souder. Thank you very much.
    Mr. Hastert. Without objection, so ordered. As a matter of 
fact, we're going to leave the record open, and anybody who 
would like to write and to have questions and submit questions, 
and if you would, within a week, submit those back in writing, 
I appreciate it. Without objection.
    [The information referred to follows:]
    A list of signatory foreign governments and respective 
components of the standard ``six part'' bilateral maritime 
counterdrug agreement follows. None of the agreements involve 
specific funding commitments.
    Mr. Hastert. Admiral, one last question before we move on 
here. You have talked about what you can do with your 
acquisition, construction, and improvement budget. I think in 
our discussions before, and today, you probably don't have a 
lot of plans to, you know, bring in a lot of new hulls and 
build those or new airplanes. But if you had--this is a 
hypothetical question--if you had another $200 million, what 
would you do with that money, and what would be the effect on 
interdiction?
    Admiral Kramek. Well, first of all, if I go to some of the 
statistics and what we have done before the IDA study, I 
believe that for small investments in interdiction over all of 
the agencies for $25 to $30 million a year, that investment in 
interdiction assets, that tends to reduce demand by at least 1 
percent in this country.
    But what would I do with it? I would procure and fund the 
things on the 5-year budget strategies for the agencies 
involved in interdiction, if these were interdiction funds, 
those things that had been certified by ONDCP and General 
McCaffrey, the Drug Czar. We have already sent him some lists, 
and he has certified some things that we asked him for. That is 
what his role is.
    My role as Interdiction Coordinator is to make sure that 
all of the agencies follow the strategy, and that they ask for 
sufficient resources to do it, and that they employ it 
efficiently, and each quarter I meet with all of them to make 
sure that they do that.
    In terms of the Coast Guard, our 5-year budget strategy is 
about that amount, our 5-year budget plan, and it requires a 
couple of ships to be taken out of mothballs, a couple of 
patrol boats that are excess to the Navy to be turned over to 
the Coast Guard, a couple of frigates that are going to be 
decommissioned by the Navy and given to foreign countries in 
the Military Assistance Program to be given to the Coast Guard 
instead so we can operate H-60 helicopters off of them in a 
SEABAT operation in the eastern Caribbean. Much as the OPBAT 
has been successful in the Bahamas, we would operate these off 
ship, and then to provide the forward-looking infrareds for all 
the C-130's and the aperture radars for all of our ships.
    That list is pretty well-known. We have submitted it to the 
administration. It is part of our 5-year budget strategy. Those 
are the things that we would be buying, Mr. Chairman.
    Mr. Hastert. If you had those things, do you believe that 
you could dramatically reduce further use of drugs in this 
country?
    Admiral Kramek. I think we could reduce the flow of drugs 
into the United States to the extent that we can afford it. 
Now, what do I mean by that? This is a learning curve 
operation. If you had a contact rate of 40 percent, which is 
what I would be moving to, you can deter 80 percent of the 
drugs from coming into the United States. Our contact rates now 
are down around 15 percent. So this would bring us up to a 
higher contact rate.
    Now what about the last 20 percent? We cannot in this 
country--this country has the longest sea borders of any 
country in the world. There is more shoreline in the United 
States and our tributaries in Hawaii and Alaska than any nation 
in the world. It is impossible to guard them all with that 
amount of contact rate.
    But it is like a learning curve. I wouldn't recommend going 
any higher than a 40 percent contact rate, which would get you 
up to that part of the 80 percent learning curve. You could go 
to 80 percent contact rate and it would only be 82 percent. In 
other words, you are way up on the curve here.
    So our 5-year strategy is to get a 40 percent contact rate 
with the smugglers so that we can be 80 or 90 percent 
successful. I think that's in the doable range. I think that is 
what we need to do to deny them the routes while we continue 
with a robust education and treatment program.
    Mr. Hastert. So you are saying that when we get to above 40 
percent contact you have a diminishing return, which doesn't 
pay for the investment?
    Admiral Kramek. It doesn't pay for anything beyond that.
    Mr. Hastert. You say we're at 20 percent now?
    Admiral Kramek. For Frontier Shield, we were almost at 40. 
For our current-day operations, we're at 20 percent or lower 
than that.
    Mr. Hastert. Two things: You have submitted what your 5-
year plan is. Can we assume that if we brought that into play 
quicker, that you are doing what you say you did, or would you 
submit for the record what you think that $200 million should 
be used for if you had the chance to do it?
    Admiral Kramek. We could do it earlier in the 5-year 
period.
    Mr. Hastert. Thank you. Thank you, Admiral.
    Admiral Kramek. You're welcome, Mr. Chairman.
    Mr. Hastert. I would now like to welcome our second panel. 
This panel is comprised of certainly frontline Coast Guard 
personnel. They are Lieutenant Commander Mike Burns, a C-130 
aircraft pilot; Lieutenant Commander Randy Forrester, HU-25C 
aircraft pilot; Lieutenant Jim Carlson, Commanding Officer of 
the U.S. Coast Guard cutter Vashon--I hope I said that right--
and Boatswains Mate First Class Mark Fitzmorris, Boarding 
Officer on the U.S. Coast Guard cutter Tampa.
    Would you gentlemen please step forward. If you would all 
stand and raise your right hand, committee rules require me to 
swear you in.
    [Witnesses sworn.]
    Mr. Hastert. Let the record show that the witnesses 
responded in the affirmative.
    Please sit down, and we will start with Lieutenant Burns.

STATEMENTS OF LCDR MIKE BURNS, U.S. COAST GUARD, C-130 AIRCRAFT 
PILOT; LCDR RANDY FORRESTER, U.S. COAST GUARD, HU-25C AIRCRAFT 
 PILOT; LT JIM CARLSON, U.S. COAST GUARD, COMMANDING OFFICER, 
   USCGC VASHON; AND BM1 MARK FITZMORRIS, U.S. COAST GUARD, 
                 BOARDING OFFICER, USCGC TAMPA

    Commander Burns. Good afternoon, Mr. Chairman and 
distinguished members of the subcommittee. Thank you for 
allowing me to go ahead and give you some insights to my 
Frontier Shield experiences.
    I am Lieutenant Commander Mike Burns. I'm from Chicago, IL, 
born and raised. I joined the Coast Guard team in 1986. I'm 
presently a C-130 Aircraft Commander based out of Clearwater, 
FL. I have been flying C-130's out of Clearwater, FL, for the 
past 5 years now.
    I have extensive experience in the Greater Antilles Section 
Region. I fly the C-130 aircraft. It is a four-engine aircraft. 
It's very long range, has a high endurance, and it's the 
primary surveillance aircraft that is utilized in Frontier 
Shield. Clearwater has provided two C-130 aircraft from the 
start of Frontier Shield, and basically we provide the backbone 
of the maritime surface patrols.
    A deployment crew consists of eight crew members. We 
normally deployed for 2 weeks at a time. We are normally tasked 
to fly 7 or 8 hours a day or night, and it's quite a popular 
mission with the crews. The crews are very motivated. They like 
to go down to Frontier Shield. That is what they're trained 
for, and they feel that they are really making a contribution 
to go down there.
    It was on the November deployment that I went on. It was 
quite different and unique in that the air station had just 
received its first forward-looking infrared radar on a C-130 
aircraft. This was quite important to us, and we were quite 
excited using this new hardware down in Frontier Shield.
    Since we did have this new capability, our tasking was for 
night patrols. Generally speaking, we would launch at about 8 
p.m., and return at 3 a.m., for 2-week periods of time. It was 
on our third night of tasking, it was around midnight, we were 
about 60 nautical miles south of Puerto Rico, when my radar 
operator had reported that he had two contacts on his APS-37 
radar, sea surface radar, and he asked us to go ahead and move 
in that particular direction to see if we could take a look at 
what he had.
    We moved in that particular direction and turned it over to 
our forward-looking infrared radar sensor operator who sits in 
the back of the aircraft, and on his TV screen as we overflew 
these contacts he had described to us that he had seen two low-
silhouette vessels in the water. These are called yolas.
    Normally a yola is a low-silhouette, very slender, 
sometimes--mostly wood structure, sometimes fiberglass, usually 
has a single outboard engine, and extremely hard to detect in 
the daytime. They are very small and hard to detect in any kind 
of rough seas also. So it was really a good catch by our radar 
operator to go ahead and catch the two yolas.
    What he described to us was, on his FLIR screen he saw that 
these two yolas were sitting dead in the water. They were 
obviously lights out, and they had huge containers on them, at 
which time we didn't know what they were, and they had one 
person on board. With the overflight we spooked them, and 
basically they took off. One yola started turning north, the 
other one eastbound.
    The best way I can describe what the next 2\1/2\ hours was 
like, it was like a cat and mouse game. Obviously, they were 
trying to evade us. We worked very hard to go ahead and ensure 
that we monitored their directions, positions, and this was 
done with a great deal of work between both the radar operator 
and our FLIR operator. We were lucky enough to go ahead and 
pass this information to our commander of the task force. We 
were also lucky enough to have two surface vessels that were 
close enough that they could go ahead and chase down the yolas.
    We had information that a Navy patrol boat was to the 
north. This Navy patrol boat had a Coast Guard leader team on 
board, and we were successful in getting the first yola 
stopped, and the leader team did wind up boarding this yola. We 
also had a Coast Guard 110-foot patrol boat that got the other 
yola and stopped them. We found out that the large containers 
that they had in the yola were fuel caches that allowed them to 
go ahead and basically transit to those positions that were 
well off Puerto Rico.
    After the flight, when we had returned, we were informed by 
our law enforcement folks that the larger mother ship was 
proceeding up from Colombia and was en route to the position of 
those two yolas to go ahead and off-load drugs. We know from 
previous experience that these yolas are capable of carrying 
anywhere from 1 to 2 tons of cocaine.
    I think that this illustrates that we can be very effective 
with transit zone interdiction. However, we must have the 
proper tools to go ahead and do the job that we are sent out 
there to do. Clearly, the difference in this case was the fact 
that we had sophisticated sensors. It was a perfect example of 
the Coast Guard team taking back the nighttime from the bad 
guys.
    Thank you for allowing me to make this statement.
    Mr. Hastert. I have to say that the Chicago winters are 
worse than what you are experiencing down there.
    At this time, I would like to introduce Randy Forrester, 
Lieutenant Commander on the HU-25C.
    Commander Forrester. Good afternoon, Mr. Chairman, 
distinguished members of the committee.
    I am Lieutenant Commander Randy Forrester originally from 
Indiana. I would like to thank you for this opportunity to be 
here and represent the air station men and women of Miami, FL. 
We do have the privilege to serve our country down in the 
Caribbean, and South America. We have been involved in Laser 
Strike and, most recently, Operation Frontier Shield.
    As an aircraft commander of an HU-25 Falcon Charlie model 
aircraft, it is basically a small business type of aircraft 
outfitted with the F-16 radar, and we are busy quite a bit. We 
most recently had two aircraft deployed down in Operation Laser 
Strike and two aircraft deployed in Frontier Shield. We only 
have seven aircraft at the unit, and basically what that means 
for the crews is, about every 2 weeks out of a month you're on 
the road either in Operation Laser Strike or Frontier Shield.
    Most recently, I've had the opportunity to go down to--in 
the middle of January in to support Operation Frontier Shield. 
We deployed with a crew of five personnel, a pilot, a copilot, 
a drop master, a sensor operator, and a basic air crewman.
    Wherever we are, whether it is off the coast of Miami, down 
in Puerto Rico in Frontier Shield or in Laser Strike, we're 
capable of doing multiple sorts of missions. If we have a 
search and rescue case that involves someone who needs a raft 
or needs a pump, we are able to deliver that no matter where we 
are.
    The situation down in Operation Frontier Shield--we 
deployed down there on January 7th. We stand 12-hour alert 
windows, and usually, the case we are going to talk about this 
afternoon, we checked in with our operation coordinator in San 
Juan, Puerto Rico, before we go on watch and we ask, ``Hey, is 
there anything going on tonight?''
    The night prior to the President's Inauguration, we checked 
in and they advised us that there was an air target coming up 
with South America that was being tracked by I believe it was a 
Navy dome aircraft. It was being followed. A Customs Citation 
had launched out of Puerto Rico and was now tracking the 
aircraft toward Puerto Rico. We were advised to go ahead and 
launch and intercept and assist as necessary.
    We departed out of Rincon that evening, probably about an 
hour before the sun set, headed en route, and checked in with 
the dome aircraft. They basically filled us in on the 
situation, and what had evolved since we had been briefed by 
our coordinator was that the aircraft that they were tracking 
had dropped several bails into the water probably about 40 
miles south of Puerto Rico.
    The traffic, the Customs--another Customs aircraft, a 
Nomad, has been in close proximity to that and were tracking a 
go-fast vessel that was heading toward the suspected drugs 
where the bails had been dropped. The aircraft that made the 
drop turned around and started heading back toward South 
America.
    Since we are air intercept capable, we asked them if they 
needed us to go ahead and track the aircraft back to wherever 
in South America, whether it be Colombia, Peru, or Venezuela, 
to maybe set up an end game in one of the countries down there. 
We were advised that that was not necessary and there were 
other assets probably out of Howard that were being launched to 
intercept the aircraft as it headed back south.
    Meanwhile, the go-fast vessel had picked the bails, loaded 
them on to the boat, and started heading toward Puerto Rico, 
the southeast coast of Puerto Rico. We were advised that the 
Coast Guard cutter Tampa was on scene. They were en route, 
trying to get the vessel to stop. They were fortunate enough 
that the vessel did stop, and their lookouts on board the 
vessel had suspected that they thought some people were 
throwing things overboard. We were about 25 miles from the 
scene at the time and asked to come in to start looking for 
bails in the water.
    We got on the scene in about 5 or 6 minutes and started 
looking. It was just about sunset now. What they normally do if 
the bails are about 50 to 75 pounds, they will put chemlights 
on them, which is a small tube that lights up. They threw the 
bails into the water. We were low level, about 200 feet, trying 
to see them up with the Mark 1 eyeball. Unfortunately, we were 
not successful with that. We also had the FLIR on board, trying 
to look with the forward-looking infrared to see any types of 
vessels.
    Meanwhile, the Tampa was successful in getting the go-fast 
to stop, and Petty Officer Fitzmorris will tell about that 
situation. We continued to look for the bails at a low level. 
It was about an hour and a half before we were diverted back to 
our other mission of surface interdiction.
    Thank you, Mr. Chairman.
    Mr. Hastert. Thank you.
    Lieutenant Carlson.
    Lieutenant Carlson. Good afternoon, Mr. Chairman and 
distinguished members of the subcommittee. I am Lieutenant Jim 
Carl- son. I'm Commanding Officer of the cutter Vashon out of 
Roo- sevelt Roads, Puerto Rico. The 110-foot patrol boat has a 
crew typi-
cally of 16 crew members. I happened to be on the good fortune 
to be overbilleted by 2, so I have 18 crew members.
    A 110-foot patrol boat operates at speeds of up to 30 
knots. We are employed as pouncer. What that means is that we 
work in conjunction frequently with a Falcon or a C-130. 
They'll detect targets of interest and vector us in to 
investigate further, typically concluding in a boarding.
    The Vashon is one of five 110-foot patrol boats home ported 
in Puerto Rico and one of the eight that was in theater for 
Frontier Shield. The Coast Guard brought three additional 
patrol boats into Puerto Rico from the East Coast, as Admiral 
Kramek mentioned, some as far away as Maine.
    Working in Puerto Rico, or Greater Antilles section area of 
responsibility, gives us the opportunity to patrol a little 
further than many 110's. We patrol from the Dominican Republic 
as far south as Grenada. During Frontier Shield, the emphasis, 
however, was on Puerto Rico with the Virgin Islands as far west 
as the Dominican Republic coast.
    I had the opportunity to work with some of these foreign 
maritime services. I worked with the Dominican Republic Navy 
three times, Antigua-Barbados Coast Guard once, and the British 
Virgin Islands Marine Police and Her Majesty's Customs in 
British Virgin Islands; we've seen some successes there.
    My ship worked with British Virgin Islands Customs and 
Marine Police to interdict an airdrop, a small one, 300 pounds 
of marijuana. We were the first unit on scene. We rapidly got 
permission to go into British Virgin Islands territorial seas 
to conduct limited operations, i.e., just take a look around 
and secure any drugs that happened to be on the scene. We 
worked with two British Virgin Islands vessels, British Virgin 
Islands fixed-wing aircraft, and a Coast Guard helicopter. That 
bust yielded 300 pounds of marijuana, three arrests, and a 
seized vessel and an aircraft. So there are some successes in 
this regard. There are challenges, however, that lie ahead.
    One of the times--one of the instances we worked with the 
Dominican Republic Navy, I had the opportunity to talk to my 
counterpart on the Dominican Republic Navy patrol boat--about 
the same size, 105 foot. He was telling me how one of his two 
engines was not operational. He knew what the problem was but 
didn't have the money to fix it, and also, their budget was so 
tight that he had to pay for the ship's crew's meals out of his 
own pocket. I did not know this at the time. We were invoking 
or enacting the U.S. Dominican Republic bilateral counterdrug 
agreement. I sent one of my Boarding Officers over to the 
Dominican Republic Navy vessel to do some boardings, and he 
told me he hadn't eaten all day because he didn't want to take 
the food out of the Dominican Republic Navy crew members' 
mouths. So there are some challenges that lie ahead.
    But why are we doing this? I think the point needs to be 
made that we have seen great strides over the last couple of 
years. Two years ago, we saw these foreign maritime services 
frequently were lucky to get a vessel underway during the day. 
They have progressed to the point now where we can contact them 
at night. They can recall a crew, get a boat underway, 
frequently talk to one of the U.S. aircraft that may be 
monitoring a target of interest--whether it be a Customs Nomad 
surface surveillance vessel, Coast Guard C-130, or Coast Guard 
Falcon, or even a Navy P-3 in some instances--intercept that 
target of interest and board it that night. Which is a 
significant stride that we have seen.
    All this is in an effort, as Admiral Kramek mentioned, to 
form international partnerships, the thinking being, if they 
can patrol their area around their territorial seas, it frees 
us up to do some other things and the better partnerships 
throughout the area.
    I want to touch briefly on yolas. We talked about yolas. 
There is a connotation there that they are conducting illegal 
activity, which is not always the case. The yolas are all over 
Puerto Rico. There is a number of fishing cooperatives on the 
south coast who fish the banks there. You will see yolas all 
over the place.
    One, they are extremely difficult to detect, which causes a 
problem for me from different facets. One, from a law 
enforcement facet, yolas are also used to bring drugs and 
migrants over from the Dominican Republic. I can't see them. 
Two, from a safety of seas aspect, I have to be extremely 
careful when I am patrolling that I don't hit one of these guys 
legally fishing on the banks when I patrol with my navigation 
lights out at night so as not to reveal my position.
    So I have to be very careful when patrolling not to hit the 
legal guys, but also it is very difficult to detect anyone 
conducting any illegal activity. I have had the good fortune, 
recently, to prototype a hand-held version of the FLIR 
basically on the aircraft, about the size of a camcorder. It is 
a wonderful sensor. Basically it paints a black and white 
negative, different picture of the ocean at night, and it 
depicts differences in heat sensors, so it allows me to see 
these yolas better than with any other sensor. Unfortunately, 
there are only three prototypes to be passed around between the 
eight patrol boats in theater.
    That concludes my remarks this afternoon. I would like to 
thank you for this unique opportunity. I would be happy to 
answer any questions.
    Mr. Hastert. Now I would like to direct and invite 
Boatswains Mark Fitzmorris to testify. You are a Boarding 
Officer for the U.S. Coast Guard cutter Tampa; is that correct?
    Boatswains Fitzmorris. Thank you, Mr. Chairman, members of 
the committee. My name is Petty Officer Fitzmorris, from the 
Coast Guard, assigned to the Tampa, which is a 270-foot cutter 
out of Portsmouth, VA. The Tampa was involved in Operation 
Frontier Shield for two separate patrols. The first patrol was 
October and November, and then we went back there in January, 
for January and part of February.
    On the night of January 19th, on the evening actually of 
January 19th, the cutter Tampa set the law enforcement bill, 
which basically tells the people on the crew that we are 
approaching a vessel; we will be conducting preboarding and 
possibly a boarding on the vessel.
    I was the Boarding Officer that night, so I went to the 
bridge. When I got to the bridge, there was quite a bit of 
activity going on. I learned that we were in pursuit of a go-
fast type vessel, that we were being vectored in to this vessel 
by a Customs aircraft, and that the vessel was trying to get 
away from us.
    While I was on the bridge, we did get visual on the go-
fast. The go-fast was going away from us, trying to get away 
from us. The sea state that night was quite a bit choppy. It 
was 4 to 6 foot seas at this point in time. The go-fast was 
going all the way out of the water as it was hitting the waves, 
and trying to get away.
    We tried to contact the vessel with radio. We were not 
successful in getting the vessel to come up on radio. 
Eventually the vessel came to a stop. I went below to get my 
boarding team ready to go over and board the vessel. My 
boarding team consisted of myself, one Lieutenant Junior Grade, 
my Assistant Boarding Officer, two other Petty Officers, and a 
seaman. The experience level on my boarding team was not very 
high. Two of the boarding team members, it was their absolute 
first boarding. One of the members, it was his second boarding.
    While I was briefing the crew, getting our gear ready, 
getting our gun belts on, body armor, et cetera, and the deck 
department was getting the small boat ready, we heard from the 
PA system for all hands topside to start looking in the water 
for bales. I then went back up to the bridge to find out what 
was going on and was informed the lookouts had spotted people 
on board the boat throw something, we didn't know what, into 
the water.
    We went down below. We got into our small boat and started 
over to the subject vessel. On the way over, the sea state was 
still quite choppy. As we approached the vessel, we saw that it 
was registered in Puerto Rico. The name on the vessel was The 
Hard Life. Because it was registered in Puerto Rico, we knew 
that we had jurisdiction over this vessel and we could just go 
on board.
    We approached the vessel, tried to talk to the people on 
board. They indicated they only spoke Spanish. We boarded the 
vessel. I speak a very limited amount of Spanish. We got on 
board.
    My first concern when I got on board was to assure the 
safety of my boarding team. I was identifying the crew, finding 
out who the captain was, and checking to see if there were any 
weapons on board.
    While I was doing this, a member of my boarding team looked 
in the cabin of the go-fast and indicated to me that I should 
look down there. When I looked down there, I saw many, it 
turned out to be later only 22, large packages, packages were 
approximately 1\1/2\ foot by 2 foot by about 8 inch deep, 
orange, wrapped in orange plastic packages. On the outside of 
the orange there was some mesh netting on it and there were 
chem-lights attached. I attempted to find out from the captain 
of the vessel what was in there. The captain of the vessel 
would not answer me.
    I sent at this point in time for an interpreter from my 
ship so they could prevent any possible miscommunications 
between myself and the people on board. When the interpreter 
came over, we again asked what was in the packages. They 
indicated--they refused to answer to us. I told the captain 
that I would like to look in the packages to ensure that they 
did not have any contraband on board. The captain said that I 
could go ahead and do that.
    We opened up the packages. We found a white powdery 
substance. We used our narcotics identification kits, tested 
the substance. The substance turned out to be cocaine.
    While we were dealing with this, I noticed that the forward 
cabin had water in it and the water level was rising. At this 
point after testing the cocaine for--the substance for cocaine, 
I requested permission from my command to arrest the crew and 
to seize the boat. When I received that permission, I decided 
at that point in time it was better to get those people off, 
get them on to the Tampa, so I could get a rescue assistance 
team on board to take care of the flooding we had. We then did 
that.
    We put the prisoners on the Tampa, got a R&A team on board. 
They dewatered the boat, and found that a pipe, there was a 
broken pipe on board. They effected repairs, and we determined 
that the reason that the vessel had stopped for us wasn't 
because they--not because we outran them, that is for sure. It 
was by beating on the boat so hard, they ended up breaking both 
of their engines. One engine could not operate at all, the 
other I could barely maintain steerageway.
    We had our engineers come over from the Tampa, attempted to 
repair it so we could drive it. We were approximately 40 miles 
south of Puerto Rico. Our engineers attempted to repair and 
they weren't able to, so we determined that the best course 
would be to tow it in.
    The Tampa was unable to tow us for a couple of hours 
because of some helicopter operations; we were bringing Customs 
agents out to interview the prisoners. We had to wait until 
that was done before we could take it in tow. Eventually, we 
did get the vessel in tow and the vessel was towed--when we got 
the vessel in tow, I took my boarding team, put them back on 
the Tampa because we had some squalls that came through, the 
sea state built up and we were getting pounded on the boat 
pretty well. I stayed on board the vessel and was towed into 
Ponce, arrived there the next day where we turned the vessel 
over to Customs.
    That concludes my testimony. Thank you very much.
    Mr. Hastert. Thank you, Boatswains Mate First Class 
Fitzmorris.
    Mr. Hastert. You talk about all the equipment that you have 
to have, the body armor, all the side arms and everything. Do 
you have adequate equipment to do the job that you have to do?
    Boatswains Fitzmorris. As far as the type of equipment, 
yes, sir, we do. Right now, however, we are a little short on 
equipment on board our boat and some of our boarding team 
members actually tradeoff.
    Mr. Hastert. Like what kind of equipment?
    Boatswains Fitzmorris. We are currently getting more gun 
belts for the people, for the boarding teams, et cetera.
    Mr. Hastert. How about communication equipment?
    Boatswains Fitzmorris. Our communication equipment we have 
on board, we currently use secured comms. between us and the 
ship. Sometimes they work. Usually they get wet on the way 
over. It is very wet transferring back and forth. We will take 
three with us, and sometimes have one working when we get over 
there.
    Mr. Hastert. Lieutenant Carlson, one of the things you 
talked about is the FLIRs, the hand-held FLIRs. You say you 
have three of them.
    Lieutenant Carlson. Yes, sir, that is correct.
    Mr. Hastert. You have to trade around?
    Lieutenant Carlson. That is correct.
    Mr. Hastert. Different ships?
    Lieutenant Carlson. Yes, sir.
    Mr. Hastert. Is that pretty important for use?
    Lieutenant Carlson. Extremely important. We got some night-
vision goggles which are also important. If you are away from 
the companies and it may be a dark night, overcast, there is no 
ambient light from which the night-vision goggles could 
amplify, so sometimes they are not of use. The infrared camera 
is very valuable.
    Mr. Hastert. How many units are used in three FLIRs?
    Lieutenant Carlson. I didn't understand the question.
    Mr. Hastert. How many units?
    Lieutenant Carlson. Since we only have the three, 
frequently when the 110 pulls in, they will try to do a swap. I 
will run them across the pier to the ship relieving them, give 
them the suitcase, and they will get underway. Sometimes people 
get underway early, people come in late, and the swap can't be 
made. So frequently, I wouldn't say frequently, probably about 
half the time we are patrolling without that.
    Mr. Hastert. So how many more do you need?
    Lieutenant Carlson. I would like one on my ship. Probably 
in theater, one for each patrol boat.
    Mr. Hastert. How many boats are there?
    Lieutenant Carlson. Right now there are eight patrol boats.
    Mr. Hastert. Only three of these units?
    Lieutenant Carlson. That is correct. It would also be 
valuable for the larger ships in the area. At any time we have 
larger ships.
    Mr. Hastert. Night-vision goggles, you have an adequate 
amount of those?
    Lieutenant Carlson. We have three sets of night-vision 
goggles on board.
    Mr. Hastert. For each ship?
    Lieutenant Carlson. I know each ship has at least one.
    Mr. Hastert. I am going to pass to the vice chairman of the 
subcommittee, Mr. Souder.
    Mr. Souder. When you look at the size of the Gulf of 
Mexico, you know people have to be going by with drugs in them. 
What would you do if you were in our position or the 
President's position or anywhere, understanding that they have 
budget constraints and they are trying to balance different 
things, but what would you do if money wasn't the object to try 
and catch more of the people going by you? Any of you.
    Lieutenant Carlson. I--for me, I don't think I am qualified 
to answer that question, sir. I don't know what the threat is 
in the area. I don't know--we have operations analysis type 
people that could probably better adequately answer that.
    Mr. Souder. One of the things that struck me last night, we 
rented two movies, ``Harriet, the Spy,'' which didn't cover the 
drug issue very much, and ``The French Connection,'' which I 
hadn't seen for a while. When we looked at that and how they 
buried the heroin inside the car, when we heard Admiral Kramek 
talk about the oil tank, inside the oil tank, it would seem on 
the surface that when you were discussing the ship that you 
intercepted, it had bales of marijuana floating in the water, 
that they weren't taking a lot of precautions to hide that 
inside the hull or that type of thing.
    Also, when you were describing the seeing orange bags of 
cocaine when you came on board, that is not like buried inside 
of a motor where it is impossible to find. Which suggests they 
don't think their odds of getting caught are too high.
    Is that a false assumption or is the size of their load not 
critical or are they just particularly stupid?
    Lt. Commander Forrester. Your first statement about how 
large the ocean waves are in the Gulf of Mexico and Caribbean, 
there is such a large mass of water to cover, the detection in 
monitoring is probably our key thing. You have to find these 
vessels first. Because of the limited resources, it is so 
difficult sometimes just to find them. With the C-130 
capabilities, with their radar, that is a great help.
    The more detection assets out there to locate these 
vessels, it is probably our biggest frustration. You search a 
lot of times for many hours and never locate anyone. It is 
detecting those and then they can be boarded by the 110's or 
the vessels.
    Mr. Souder. So you don't think that the problem is the 
ability to detect, but our limitations in the number of units 
we have detecting? Or is it part of it?
    Lt. Commander Forrester. It is a combination of both, in my 
opinion, sir. It is having the technical ability, for example, 
in the HU-25 Falcon, we are mostly an air intercept asset. When 
it comes to detecting the small yolas, in any type of sea 
state, we have a very low likelihood of detecting a small yola 
at 25 or even a go-fast boat. If it is flat waters, we are 
pretty effective in detecting surface contacts. It is a 
combination of both, of having the technical ability to do it, 
the equipment, the FLIR, the APS-137, the C-130 has a great 
radar, and then obviously the assets.
    The more you are out there, the more likelihood, the number 
of flight hours to fly, the number of underway days for the 
boats to be out there. It is a combination of both of those. 
The ability to detect it with the proper equipment and then the 
assets out there to utilize that equipment.
    Lieutenant Carlson. Also, sir, just to bring one more point 
to light, there are different modes of smuggling. The yolas are 
difficult to detect. The people in the yolas know that. So in 
that sense there are not many places you can hide drugs on a 
yola.
    A sailboat coming up from South America, however, of which 
there are hundreds cruising those islands, we have come across 
modes where they go into a yard, maybe a covert yard somewhere, 
a shipyard, remove the keel, hollow it out, put drugs in there 
and bolt the keel back on. There is no way to find that in a 
boarding at sea. So it is not so much they are so flagrant or 
blatant that they don't think they will get caught, it just 
depends on the mode of smuggling.
    Mr. Souder. If they had it in the hull, you wouldn't be 
able to find it?
    Lieutenant Carlson. If they had it in the keel, short of 
any other intelligence, there would be no way for us to access 
that keel.
    In a typical boarding, the Boarding Officer is relying on a 
number of things to tip him off. One would be intelligence, one 
would be crew members' reactions when boarding team members are 
in different areas of the vessel. One is just plain view, maybe 
someone is so blatant to think they wouldn't get caught. But if 
someone has been doing this for awhile and has something hidden 
in the keel, it would be extremely difficult to detect that at 
sea.
    Mr. Souder. You don't have the equivalent of like a drug 
dog?
    Lieutenant Carlson. We do. Some ships do have, not 
permanently stationed, but some ships do take on drug dogs 
occasionally. The new technology, the IONSCAN and CINDI are two 
pieces of equipment that would in that case detect the drugs. I 
don't happen to have them on my ship.
    Mr. Souder. I think we saw a demonstration of one of those 
at one of our hearings.
    If I could return, Commander Burns, do you have something 
you want to insert in any of this discussion?
    Lt. Commander Burns. I will. I will go ahead and point out 
one thing, again getting back to the C-130 aircraft, it has 
been the backbone of the air surveillance down until Frontier 
Shield. I have always felt that we have had tremendous 
capability for detection of any sea surface vessels. We have 
had the APS-137 radar, which was employed. Navy technologies, 
it was utilized to go ahead and detect Soviet submarine 
periscopes. So that is how advanced this technology is. It is 
an asset that we have had in Clearwater aircraft since 1988, 
and I felt it was the biggest step the Coast Guard had taken 
for maritime patrol aircraft since we have had C-130's.
    It is also my feeling that with the acquisition of the FLIR 
to C-130 aircraft, we have one now, that was probably the 
second biggest step we have taken.
    The reason why I say that is because the C-130 always had 
this very, very good ability to detect assets, but we would 
have to visually ID these vessels during the day. Quite 
frankly, at nighttime we would have to pack up our tent and go 
home because we had no way to go ahead and ID these surface 
contacts.
    We did that, or we would work with other units. A 
helicopter or a fixed wing aircraft that had the FLIR or night-
vision goggles would have to be incorporated with our flight 
plan to go out and ID the targets that we detected.
    Mr. Souder. Do we have an adequate number of the FLIRs?
    Lt. Commander Burns. We have one FLIR at Clearwater at this 
time. That is all we have been funded for.
    What I would like to point out is that this FLIR acts as a 
force multiplier and allows us to go ahead and act as an 
independent, autonomous aircraft that can go out, do the 
detection, and ID the targets. We do not have to rely on 
another resource.
    In terms of working with the Coast Guard cutters, for us to 
go ahead and detect targets and have to go ahead and have the 
Coast Guard cutter jump from target to target to target in 
terms of time and fuel, is very, very costly and very 
ineffective. That is why I think that we are moving in the 
right direction by putting this advanced technology FLIR on C-
130 aircraft.
    Mr. Souder. Do you have a rough idea of what that costs?
    Lt. Commander Burns. I do. I am not sure that my figures 
are exact. It is my understanding, and I will leave this so 
that we can go back for the record, but I believe it is 
$800,000 is what we paid for the Texas Instrument FLIR 49.
    Mr. Souder. Thank you very much, Mr. Chairman.
    While he is waiting, can I come back to the marijuana 
floating in the water? About what was that worth?
    Lieutenant Carlson. I am not sure of the street value of 
that, sir. I can certainly insert that for the record.
    Mr. Souder. It was in the hundreds of thousands or 
millions?
    Lieutenant Carlson. I don't know, sir.
    [The information referred to follows:]

    Approximately 300 pounds of marijuana was recovered from 
the water following the disrupted airdrop. The estimated street 
value of this contraband was $1.2 million.

    Mr. Souder. I am still intrigued, because it had to be a 
pretty large amount. It seems like if they thought there was a 
fairly high risk of getting caught, you would----
    Lieutenant Carlson. That was the strangest airdrop I have 
ever been associated with, sir. It was during the day on a 
Sunday morning. I don't know what the guy was thinking.
    Mr. Souder. He was probably high.
    Lieutenant Carlson. He was probably using some of the 
product; that is right.
    Mr. Hastert. I thank the gentleman from Indiana.
    Lt. Commander Burns, we are talking about a C-130. I am 
going to go back to the testimony that Admiral Yost gave us 
about 2 years ago, and it says, I am quoting here, ``Yost 
testified the Coast Guard C-130 airborne early warning aircraft 
had been turned over to the Air Force, stripped of its 
equipment, including a dome-mounted radar, and is now used for 
transportation of cargo.'' In addition, Yost reported that the 
new, and I am reading this verbatim, ``Yost reported that the 
new command control communications intelligence center has been 
closed and its duties are performed elsewhere.''
    Now, are these aircraft that are not in use now?
    Lt. Commander Burns. It was my understanding the domed 
aircraft that we used, it was the Coast Guard 1721, it was 
turned over to the Air Force. It still belongs to the Air 
Force, and I do not have any idea as to what the Air Force is 
doing with it at this time.
    Mr. Hastert. The domed radar is not the same FLIR you are 
talking about, right?
    Lt. Commander Burns. No, sir, it is not.
    Mr. Hastert. It performs a like duty?
    Lt. Commander Burns. The FLIR is a small ball attachment. 
We modified the attachment point to be on the belly of the 
aircraft, on the right-hand side. We have a pallet that is in 
the back of the aircraft, of which we have a radar screen for 
the radar operator and for the FLIR operator, and they sit 
side-by-side. Basically, they can both work detection and IDing 
at the same time. So it is totally different from what we are 
referring to with the 1721.
    Mr. Hastert. How many of these C-130's do you have now in 
operation?
    Lt. Commander Burns. We have seven C-130 aircraft at Air 
Station Clearwater. We only have one FLIR. Right now it is 
mounted to a specific aircraft, and that is due to the 
tolerances of not having a common frame structure underneath 
the aircraft. Right now it is under one of our aircraft. It 
will go down for 2 weeks at a time. However, when that aircraft 
returns back to Clearwater, the FLIR goes with it.
    Presently we are working, our engineers are working to go 
ahead and get three common airframe mounts on our aircraft so 
that when the aircraft returns, it is a very simple removal 
from one aircraft on to the other aircraft, so that aircraft 
can go ahead and then go down the feeder and to utilize it 
again.
    Mr. Hastert. So not only do you have one FLIR for seven or 
eight aircraft, but it is not interchangeable?
    Lt. Commander Burns. It is not easily interchangeable. It 
takes about 3 days for the removal and installation on the next 
aircraft.
    Mr. Hastert. Thank you.
    Well, gentlemen, I appreciate your testimony. You kind of 
give us a flavor for being there on the front scene of this. We 
hear a lot of testimony from time to time about what we should 
do and the issues of how things should be done, often from 
somebody sitting behind a desk, including ourselves. I 
appreciate the work that you do, your firsthand experience that 
you have brought forward today, and it is very helpful and very 
valuable. Thank you for participating.
    It is now my distinct pleasure to welcome Admiral Paul 
Yost, former Commandant of the U.S. Coast Guard and current 
president of the James Madison Memorial Fellowship Foundation.
    I have to tell you while you are coming up, I don't know if 
you remember, but I sat on this subcommittee years ago when you 
were first starting to put together the ability to stop drugs 
and work on building up the drug interdiction effort in the 
late 1980's and early 1990's. We certainly thank you for your 
effort, and we thank you for being with us today.
    If you will stand and raise your right hand, committee 
rules require me to swear you in.
    [Witness sworn.]
    Mr. Hastert. Let the record show the witness responded in 
the affirmative.
    Admiral, please proceed with your opening statement.

  STATEMENT OF ADMIRAL PAUL A. YOST, PRESIDENT, JAMES MADISON 
  MEMORIAL FELLOWSHIP FOUNDATION, AND FORMER COMMANDANT, U.S. 
                          COAST GUARD

    Admiral Yost. Thank you very much. I am Admiral Paul Yost, 
U.S. Coast Guard retired. I was Commander of the Atlantic area 
for the Coast Guard between 1984 and 1986, and then Commandant 
between 1986 and 1990.
    As you said, Mr. Chairman, I gave testimony to this 
committee 2 years ago, I think it was March 9th, and I ask that 
it be referenced or made a part of the record in this committee 
hearing.
    I have not prepared written testimony, but would like to 
orally expand on my previous testimony.
    In the 1984 to 1990 era, we didn't seem to have the tension 
between source country and transit zone strategy that I see 
today. I don't think that that competition should exist, and I 
don't think it is particularly healthy.
    Both are needed, and they must be done in unison. Let me 
explain by example.
    In the late 1900's, early 1990's we had an operation we 
called HAT TRICK. The idea was to pulse into the transit zone 
with an overwhelming force immediately after the marijuana 
harvesting season. This forced the cartels to either ship 
through our pulse or to stockpile. The second piece of the 
equation was the source country piece. That is, the Colombian 
army descended on the stockpiles in the port zones and 
destroyed the harvest.
    It worked. The source country's armed forces destroyed 
masses of marijuana while the transit zone pulse held most of 
the drug vessels in port.
    The next harvest season we tried to do the same thing, but 
something had happened in the source country. A few months 
before they had had a major national disaster, earthquakes and 
mud slides, and the armed forces were completely employed in 
the national disaster. So we got no help from the source 
country.
    The next season we tried to do the same thing again, but 
this time the Colombian Supreme Court had been attacked by the 
cartels, many judges had been taken hostage, records had been 
destroyed, and what we found is that at that time of the 
Colombian effort, national will had all but disappeared. Again, 
the source country part of the equation was not there.
    In each of these seasons, the cartels stockpiled and 
shipped after our pulse. The first season, of course, they 
didn't have anything to ship because their own armed forces had 
destroyed most of it. The second two seasons, because without 
the source country help, they were able to outwait us and try 
to ship after the pulse was over.
    The message here is source country strategy is a powerful 
tool, but it is not reliable, it is not as reliable as the 
transit zone effort. You have to do both. One you control, the 
second is a function of foreign policy and source country 
internal politics.
    Also in the 1984 to 1990 era, I saw less tension between 
the demand and the supply side efforts, although there was 
still some tension there. In truth, again, both are needed. 
However, as long as large supplies of drugs are available in 
the United States, drug use will be high. That is, demand 
reduction doesn't work as well with high supply. Again, the two 
have to work in unison.
    Unfortunately, interdiction in the transit zone is very 
expensive and the temptation is not to properly fund it.
    In that regard, not much has changed from then to now. We 
didn't have enough money then in either the President's budget 
or the ``Congressional Stage'' budget. I understand the Coast 
Guard budget for drug interdiction was reduced after 1990 by 
almost 50 percent. There is plenty of fault to go around for 
this, including with the Coast Guard itself whose leaders felt 
that putting money and assets in fisheries and in Merchant 
Marine safety after the Exxon Valdez spill was wise. As it 
turns out, it was not wise, in my opinion.
    The budget at both the Presidential and ``Congressional 
Stages'' supported this transfer of effort from drug 
interdiction into fisheries and Merchant Marine safety. We are 
now paying the price in increased supply, followed by increased 
demand.
    My understanding is that Admiral Kramek is actively 
realigning the asset allocation in this regard, but it takes 
time. It took years to buildup the force structure we had in 
1990. It is going to take years to reinstate it at great cost, 
and meanwhile we are going to be inundated by drugs in this 
country.
    I would be pleased to answer any of your questions.
    Mr. Hastert. Thank you, Admiral.
    At this time I would like to invite our vice chairman, Mr. 
Souder.
    Mr. Souder. We heard earlier today, and also from General 
McCaffrey and in the President's drug budget, that cocaine use 
has dramatically dropped. Are you suggesting that the cutbacks 
haven't been all good news? In effect, we have been hearing 
that, well, we made great progress, and that we didn't pay a 
price for the cutbacks.
    Admiral Yost. Well, let me say I admire General McCaffrey, 
and I think he is a warrior and he is the guy for the job. I 
don't have any of the details or the facts or the statistics on 
what the supply is. All I read is in the newspaper that supply 
is up and use is up amongst children of high school age. That 
may not be so. I don't have that intelligence available to me 
as the General does.
    Mr. Souder. I don't think any of us along the way are 
questioning that he and Admiral Kramek and others aren't great 
warriors in the drug battle. We are wondering whether they are 
muzzled to some degree by their positions, because if in fact 
you can cut the budget 50 percent and make progress, quite 
frankly, as somebody representing the taxpayers of this 
country, I have to ask, well, so what?
    The question is, what do you think, could you be a little 
more specific? I know you testified to us before. What do you 
think some of the things that might have happened because of 
these cutbacks are?
    Admiral Yost. Yes. I am not sure that I could tell you 
statistically what happened in the way of drug supply. What I 
can tell you is that from 1990, 1989, 1990, 1991, in that era, 
to 1993 or 1994, there was about a 50 percent drop in the 
operating expense of the Coast Guard budget dedicated to drug 
interdiction.
    That caused, I read in the newspapers, an increase in 
supply. I am surprised to hear that there isn't any increase in 
supply. But I would not disagree with General McCaffrey. He has 
all the intelligence available to him. I am involved in running 
an educational foundation that has to do with the Constitution 
of the United States. I don't have any of that intelligence.
    Mr. Souder. In his defense and the others, I don't think 
they said there was a decrease in supply. What they said was 
the number of cocaine addicts had declined because every law 
enforcement official around the country will tell you that that 
is part of the reason that the price has dropped, is the supply 
is up, and the purity is up.
    It is clear the supply is there. We are seeing it in the 
youth. We are trying to figure out this one number that keeps 
popping up on charts about cocaine addicts. That doesn't 
apparently involve crack.
    Admiral Yost. I can't help you on that. I just don't have 
the information. I can't supply it for the record. It is not 
available to me.
    Mr. Souder. Do you believe, had the budget been kept at 
levels that it were, we would have heard what we heard on the 
last panel as we get equipment like sensors or FLIRs, that we 
would be short those? Are those some of the prices we paid by 
having reduced the budget?
    Admiral Yost. I am not sure that the shortages that the 
young officers and men here reported are critical. They were 
talking about a FLIR that was a prototype, that was a hand-
held, that apparently they are testing it out for more 
procurement.
    I testified last time that I felt very badly about the loss 
of the airborne early warning aircraft. We had three AWACS 
aircraft dedicated to this job in the Caribbean, Coast Guard 
aircraft. We had created a Coast Guard air station just to 
support those complicated aircraft. We had put F-16 radars on 
Falcons so they could sit on strip alert, come off strip alert 
and intercept. We had all that in place, and because of a 
decision that was made partly because of budget priorities, 
partly because of the Exxon Valdez, partly because of emphasis 
on fisheries, a lot of that was taken down and the money and 
the men transferred elsewhere.
    Now we have got a real warrior as Commandant of the Coast 
Guard, and he is trying, as I understand, to move that back in. 
It can't be done overnight. It can be taken down overnight. It 
is easy to tear down a building. It takes a long time to 
rebuild it. That is what he and General McCaffrey are trying to 
do, is my understanding.
    Mr. Souder. Now, it is kind of hard, because, we do a lot 
of different things here in addition to fund-raising that--not 
here in the Congress--but as Members of Congress, going back 
and forth to our districts and town meetings and trying to 
sustain a family life. So it is hard to keep track of all the 
different variables. I get lost sometimes in the numbers.
    But what I heard Admiral Kramek saying at first was that we 
didn't need the AWACS because there are smaller type systems 
that can do the same amount of tracking. Were you here during 
his testimony? Can you explain that?
    Admiral Yost. I was. What I heard the Admiral say is that 
AWACS is a national asset. Although we had more available 
before Desert Storm, before Bosnia, before some of the other 
emergencies, AWACS now is a very scarce item and one has to 
program it very carefully, and that is being done by the 
Department of Defense.
    He is getting his share, but whether he is getting all that 
he would like, I don't think he said whether he was or not.
    AWACS is always highly desirable. Of course, I felt when 
the Coast Guard had their own AWACS, it made continuity of 
command much easier when you didn't have to compete in the 
marketplace against other national priorities.
    Mr. Souder. If you were in our position, what is the single 
greatest thing you would focus on relative to the Coast Guard 
right now in addition? Would it be the AWACS?
    Admiral Yost. Well, I would have to salute Admiral Kramek 
on that. I am not sure, because I don't know what his force 
structure is. All I can tell you is we had more forces 
dedicated to drug interdiction in 1990 than we have in 1997. 
The newspaper tells me we have a greater supply of drugs in 
1997 than we had in 1990, 1991, and 1992. Whether that is true 
or not, I don't have the intelligence, the national 
intelligence to know.
    I do know that supply and demand must be done at the same 
time. I know supply is very, very expensive compared to demand. 
So you can't pull money out of supply and move it over to 
another area without hurting the whole equation.
    Mr. Souder. You suggested in your testimony that it was 
more complicated when we had to deal with source country things 
than when we dealt with interdiction because of the 
international diplomacy. But are you surprised that we continue 
to not get a maritime agreement out of Mexico and we don't have 
one with Haiti?
    Admiral Yost. Well, I don't know whether I was surprised. 
It was a piece of knowledge that I didn't have until I listened 
to the testimony here. I am sure it is available in the 
newspapers. I must have just not read the right articles.
    But I know that dealing with these countries, they are very 
concerned with sovereignty, they are very concerned with the 
United States being the big brother to the north, and that has 
been around for a long, long time, since I was in grammar 
school. We heard about those problems. So I am not really 
surprised that they are not willing to give something that they 
feel affects their sovereignty.
    Again, that is not in my portfolio really to comment on, 
other than saying I am not surprised and that I am aware. I 
don't think I can say more.
    Mr. Souder. Do you have any comments, this will be my last 
question, Mr. Chairman, or any suggestions based on your 
experience, because this is a comparatively new phenomenon, I 
am sure it was there to some degree, but what to do with the 
movement to the Pacific side on Mexico?
    Admiral Yost. No, I don't have any ideas on that side. It 
is a much bigger problem than on this side. There are no choke 
points. As the Admiral points out, there is a lot of ocean 
there.
    I think that you need assets, and how you deploy them and 
what the strategy is is up to General McCaffrey, a superstar, 
and Admiral Kramek, one of the best Commandants we have ever 
had. I am not going to second guess those guys.
    Mr. Hastert. Admiral Yost, again, I want to say I really 
appreciate your being here today and giving us your expertise.
    The testimony that you gave before this committee basically 
2 years ago said that, and at that time it was probably more 
critical than it is today, that a lot of the work that you had 
done and we had put together, and I served in this Congress, I 
have been here since 1986, is gone. That was disassembled. We 
don't have the AWACS flying. They are other places. We have 
other problems.
    But this thing, we also hear a national strategy that this 
isn't a war any more, it is like a cancer. Well, I go back to 
my old coaching philosophy, which I did before I got into 
another business like this. When something is a cancer, you 
don't usually win that. A war you can win. You have to put your 
resources out there and make sure you do win it.
    If you had resources again, what would four or five 
things--this whole debate on whether we should certify Mexico 
or decertify Mexico, there are some things that we could have 
done to make leverage, that we could have done other things. 
This is foreign policy, but it really gives you tools to get 
things done.
    What are four or five things that we could do in your 
opinion to help win this war? I still think it is a war, in my 
opinion.
    Admiral Yost. Well, unfortunately, as you said before, we 
are not really treating it as a war, and when you don't treat 
it as a war, it is very hard to fight it on a war footing. We 
don't shoot down aircraft coming into this country carrying 
cocaine. When we track them, very often when they find out we 
are tracking them, they turn around, do a 180, go back and land 
in Colombia or wherever they came from. They refuel and 3 or 4 
days later they will take off again, give it another shot.
    There is no great penalty for turning around and going back 
with a cargo. If worse comes to worse, they might even drop the 
cargo and turn back. So it is very hard when you are not on a 
wartime footing to make the enemy pay the price when he makes a 
big mistake. When he makes a big mistake, the enemy in the 
aircraft turns back and goes home.
    The go-fast boat will sometimes be able to jettison the 
cargo, and when you finally catch him, if you do catch him, he 
is clean and you have trouble making a case against him. If you 
don't catch him, he goes home.
    So we are not on war footing, and it is hard to make the 
enemy pay the price. Without war footing and rules of 
engagement that approach war, I don't know how you do it. 
Neither do I know any administration or any Congress that is 
going to violate all the IKAO treaties by starting to shoot 
down civilian aircraft. So it is kind of a catch-22.
    I don't have any great ideas how we are going to win this 
war. I didn't win it in 1990 when I had these assets. We 
weren't winning the war then. We were keeping even with it, 
maybe we were even decreasing the supply some. Maybe we were 
decreasing the use some. But we were certainly a long way from 
winning it.
    So I don't know what kind of assets it would take to add to 
the stockpile to win the war, along with rules of engagement 
that would allow us to make the enemy pay the price. I don't 
see either of those things in the offing. So I hesitate to say 
any more than that.
    Mr. Hastert. Well, in the 1990's you did end up having the 
assets and you did have a strategy and you did, through your 
pulse technique, really kind of shut down the Caribbean. Other 
things happened when you shut down the Caribbean. The air 
bridge from Colombia up to Mexico and then in from Mexico into 
the four branches into the United States, I mean, the way the 
stuff moved changed. You would have to be able to fight that 
and adjust to that.
    But knowing what you know today, you were in the 
interdiction operations not just in the Caribbean but in 
Vietnam, during that war, and if you were speaking frankly, 
what would you do, at least in a strategy that we are not doing 
today?
    You talk about shoot-down policy. We have a shoot-down 
policy. It happens to be in Peru, but we have worked with them 
and been pretty successful.
    Admiral Yost. It works. It works. That is Peruvian 
aircraft, sometimes using our intelligence, et cetera, and that 
worked. It worked very well. I think it is still working.
    We shut down the movement; by shut down, we vastly reduced 
the movement of marijuana and cocaine over the Caribbean into 
the United States. When we did that, then the movement began to 
be along the land bridge, through Mexico and into Mexican 
airfields and then transported by land across into California, 
or sometimes they would fly it directly into California.
    Once you stop it over the maritime area, then you have got 
to have the assets on the land border. Now you are getting 
again into sovereignty, you are getting into posse comitatus, 
you are getting into what kind of a force, are we at war, what 
kind of force do we put on the land border. Those are political 
questions well above my pay grade.
    But once you stop it across the maritime area, you have got 
to stop it on the land area. If you let go on the maritime 
area, it will come back into the maritime area.
    So it is a balloon, and wherever you grab it, it comes 
someplace else.
    Mr. Hastert. Admiral, if you were working on this project 
today, in fact when you were there, you integrated other DOD 
assets. Do you think we should be doing more with other DOD 
assets today?
    Admiral Yost. Well, of course things have changed a lot 
since I was there. I would say this: When I was Commandant, I 
was very interested in using DOD assets and having control of 
those assets. I was not particularly interested in seeing DOD 
get into the drug interdiction business. At that time, DOD had 
plenty of other things to do, so they didn't--they were 
reluctant to get into the drug interdiction business.
    Now I think things have changed, where DOD is very 
interested in drug interdiction; they are very active in drug 
interdiction. General McCaffrey is the drug czar and is very 
familiar with the DOD system.
    So the ideas that I had, which was let's get one guy in the 
maritime area, hopefully the Commandant, with all the assets he 
needs, either with Coast Guard shields painted on them or 
tasked by DOD to his operational control. I think we are 
probably beyond that. We have moved beyond that, and I don't 
think we can go back to that, and I think that the system we 
have now is fine.
    You have just got to add assets to it. That is the answer. 
You have got to add assets before you are going to stop the 
supply.
    Mr. Hastert. A couple weeks ago, because of the nature of 
this committee, I was in the southern command of Europe, and 
out on a command ship. I saw capabilities, that I am not sure 
if I am free to talk about here or not, so I won't. But it just 
boggled your mind about being able to identify what was moving 
where and when. It is unbelievable. If you cover the whole area 
of the Baltics, you certainly should be able to do that type of 
thing and be able to watch what is moving over our Caribbean 
and the Gulf of Mexico.
    Admiral Yost. You put an AWACS over the Caribbean and you 
have got almost the whole Caribbean on your screen, air and 
surface. You have two people in the back end of that AWACS, one 
of them is handling the air picture, other the surface picture. 
They have a good idea what is going on in the Caribbean. Then 
you need strike aircraft on strip alert that are able to launch 
and track. That is the asset you need. Those are a lot of 
assets if you are going to stay there, as Admiral Kramek says, 
24 hours, 7 days a week.
    We don't have those kind of assets. The national assets are 
not available. I don't know why we got rid of the C-130 
aircraft with the radar dome and took the dome off of it. That 
was a great asset. But apparently the decision was made to take 
the money and the people that were running that C-130 and the 
three AWACS aircraft and use them in areas such as Merchant 
Marine safety, to avoid oil spills like the Exxon Valdez, those 
kind of things. I wasn't privy to that, but it was an 
administration and congressional and a Coast Guard decision. It 
is--if it is a wrong decision, there is plenty of blame to go 
around. If it is the right decision, there is plenty of credit 
to go around. So I can't second guess it from 7 years out of 
being the Commandant of what they should be doing now.
    Mr. Hastert. Admiral, as we said, partly because of what 
you were able to do in the late 1980's and 1990's and we were 
able to basically shut down most of the drugs moving through 
the Caribbean----
    Admiral Yost. We were.
    Mr. Hastert. Now there are new technologies and the air 
bridge developed and the Mexico land bridge, those types of 
things. Because we have been somewhat successful, not very, but 
somewhat successful, still about 70 percent of the narcotics 
that comes in from Colombia, moves in from the land area once 
being flown or maritimed into Mexico. But the 30 percent that 
moves through the Caribbean, do you think we could have the 
ability if we had the assets to stop that from reaching our 
shores?
    Admiral Yost. I think that if you add assets to that 
equation, you are going to reduce the amount of drugs coming 
across the Caribbean. Whether that will drive it back to the 
land bridge or back on the Pacific side, I don't know. I would 
guess some of it would try to go that way. So you can't add 
assets in the Caribbean without also being ready to stop it 
wherever it is coming through, both the transit zone and the 
source country, which have to work in unison, as I said.
    Mr. Hastert. Thank you, Admiral. Mr. Souder.
    Mr. Souder. One thing we did hear when we were down in 
South America is that because we were putting cost pressures, 
reducing the payments to the campesinos growing it, some of 
them were looking for alternatives for the first time, which is 
one of the other affects you have, a change in the cost 
structure. I was intrigued, you worked in the Vietnam 
interdiction?
    Admiral Yost. I did.
    Mr. Souder. I have heard both from Asian sources and 
American sources that there is some concern that as we 
presumably move toward some form of normalization with Vietnam, 
that Saigon could become a major point for having heroin 
trafficking. They are concerned over there; we are concerned 
over here. Do you share some of those concerns, and how would 
you start to look at this down the road?
    Admiral Yost. I don't share those concerns, only because I 
don't know.
    What I brought out of Vietnam was having the responsibility 
for closing off the coast of Vietnam to the importation of arms 
from either--well, the Vietcong or whoever, that we had 
compared to drug interdiction, which had almost an unlimited 
amount of assets.
    We had ships, aircraft, patrol boats, 7 days a week, 24 
hours a day. We patrolled those coasts and we were in a war. 
When somebody tried to come through the blockade, we sunk them, 
and people lost their lives. It was a war, and we shut it down 
there and we could shut it down here.
    But we will never here get the rules of engagement because 
it is not a war and we will never get the assets we had in 
Vietnam on a war. We will never get the command and control 
that we had with one commander who commanded the whole thing.
    Here we have multiple agencies, FBI, DEA, Customs, Coast 
Guard, and we have a drug czar who is not in command of these 
things. He is a coordinator. As I said last time, and it was 
probably a poor analogy, but I kind of like it, if General 
Eisenhower standing on that heavy cruiser at Normandy was the 
czar instead of the supreme allied commander, I wonder how much 
cooperation he would have gotten when he said: ``You guys in 
the Air Force, would you like to fly today? You guys in the 
Navy, would you like to land? How about you Coast Guard guys, 
are you ready to put the landing party ashore?''
    It is a difference between a coordinator, a czar or a 
coordinator, and a supreme allied commander.
    I am not saying we will ever have a supreme allied 
commander this war, because it is not a war, and we don't have 
the assets and we don't have the pyramid structure and we don't 
have all the rules of engagement.
    Mr. Souder. Thank you very much for your testimony, even 
though it is pretty discouraging. As Congressman Mica likes to 
say, it shows we are in a skirmish, not a war.
    Admiral Yost. Thank you very much, Mr. Chairman.
    Mr. Hastert. Admiral, we certainly appreciate you being 
here today and your testimony.
    I want to thank all of today's witnesses for this excellent 
testimony we have had. This hearing and the Subcommittee on 
National Security, International Affairs, and Criminal Justice 
is adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
